<html>
<title> - SYRIA AFTER THE MISSILE STRIKES: POLICY OPTIONS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                   SYRIA AFTER THE MISSILE STRIKES: 
                             POLICY OPTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 27, 2017

                               __________

                           Serial No. 115-27

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                ______
                                 
                                 
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-261 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3651465976554345425e535a461855595b18">[email&#160;protected]</a>                              
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Michael Singh, Lane-Swig senior fellow, managing director, 
  The Washington Institute for Near East Policy..................     4
Mr. Charles Lister, senior fellow, Middle East Institute.........    15
Dafna H. Rand, Ph.D., adjunct professor, National Defense 
  University.....................................................    28

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Michael Singh: Prepared statement............................     7
Mr. Charles Lister: Prepared statement...........................    18
Dafna H. Rand, Ph.D.: Prepared statement.........................    31

                                APPENDIX

Hearing notice...................................................    78
Hearing minutes..................................................    79
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York:
  Statement of Raed al-Saleh, head, Syria Civil Defense or White 
    Helmets......................................................    81
  Statement of Church World Service (CWS)........................    82
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    83

 
                   SYRIA AFTER THE MISSILE STRIKES: 
                             POLICY OPTIONS

                              ----------                              


                        THURSDAY, APRIL 27, 2017

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:07 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order.
    The title of this hearing, colleagues, is Syria After the 
Missile Strikes: Policy Options.
    Some of us had the opportunity over the last week with what 
are called the White Helmets and these are Syrian volunteers. 
These are civil society people. I think one who I talked to was 
an accountant. She was an accountant. Another one was a 
firefighter. But they come from all ethnic, and religious, and 
political factions inside Syria. What these civil society 
people all have in common is that they are the ones that you 
see on television who are rushing in to collapsing buildings to 
rescue people, a stranger or a friend, and then try to take 
them to the hospital and many of these hospitals are under 
bombardment. They have saved some 70,000 people. And if you 
have an opportunity, you should hear their stories and hear 
their plea that we all try to use whatever political leverage 
we have to try to get Assad and the other factions to the 
table.
    But this morning we consider options for Syria in the wake 
of this month's renewed chemical attacks by Bashar al-Assad and 
the bold response we saw from the administration.
    On April 4th, facing an opposition offensive against key 
infrastructure, the regime in Syria launched a sarin gas attack 
in southern Idlib Province. Eighty-five people--including many 
children--died from that attack. The effects of sarin gas are 
immediate: The nose runs, eyes water, the mouth drools and this 
progresses to convulsions, paralysis, and in many cases death 
in less than 10 minutes. There is a reason indiscriminate 
killing of chemicals and chemical attacks cross a ``red line.'' 
There is a reason for that. And the reason is it is abhorrent.
    Assad was sending a demoralizing message to the civilian 
population there. It was: ``I can kill with impunity--with some 
of the worst weapons of war--and no one will help you.''
    But in a matter of days, the Syrian regime did pay a price. 
Two days later, nearly 60 Tomahawk missiles--fired from U.S. 
Navy ships operating in international waters--targeted the 
Syrian airfield from which the sarin attacks had launched. In a 
limited and targeted response, U.S. forces destroyed 23 Syrian 
warplanes and supporting infrastructure.
    This use of force was proportional, legitimate, and 
welcomed by our allies in the region and around the world. For 
after 6 years of unrestrained murder of Syrians, Assad was 
finally on the receiving end. Finally, ``red lines'' mattered. 
Finally, the United States was leading. And this week, the 
Treasury Department sanctioned 270 individuals involved in 
Syria's production of chemical weapons.
    Now, having taken military action, the United States has a 
chance to take Syria policy on a different path. As one witness 
will testify today, ``Determined U.S. leadership backed up by 
the credible and now proven threat of force presents the best 
opportunity in years to strong-arm actors on the ground into a 
phase of meaningful de-escalation, out of which eventually a 
durable negotiation process may result.''
    A good place to start this forceful diplomacy would be to 
make Russia and Iran pay a price for supporting Assad. So far, 
they have had no incentive to negotiate an end to the conflict 
in Syria, as they have been able to pursue their goals with 
little cost. That calculus would surely change if Mr. Engel's 
Caesar Syria Civilian Protection Act was passed by the 
Congress, signed into law, and vigorously enforced. This 
sweeping sanctions bill is guaranteed to get attention in 
Moscow and Tehran, and give the U.N.-backed process aimed at 
finding a political solution a chance.
    And while the administration sticks to an ``ISIS first'' 
strategy, this, too, can push the political process along. As 
U.S.-backed forces gain ground in the east, Assad could be 
confined to the west, opening up sanctuaries in which Syrians 
might find refuge and establish basic governance. From there, 
the United States and their allies must work together to 
advance a plausible vision of a post-Assad Syria.
    This won't be easy but Syria cannot keep going on and on 
like this. That is not in our humanitarian interest, not in the 
interest of the region, or America's national security 
interest. This has to change.
    I know turn to the ranking member, who has long been 
focused on this conflict, for his opening statement.
    Mr. Engel. Thank you very much, Mr. Chairman. And let me 
also thank our witnesses and welcome you all to the Foreign 
Affairs Committee.
    This morning, the committee will continue its examination 
of a challenge that for more than 6 years global powers have 
been unable or unwilling to resolve: The brutal war that Bashar 
al-Assad and his enablers have waged against the people of 
Syria. Hundreds of thousands are dead at the hands of this 
butcher. Millions more have been driven from their homes and 
every time the potential for a resolution has been in sight, 
Assad has been granted another lifeline.
    The missile strike earlier this month escalated American 
involvement against Assad to a new level. I think the response 
was appropriate. But a few weeks down the road, we are left 
asking, where do we go from here? What are our objectives in 
Syria? What is the strategy? And the short answer is this: At 
this point, there seems to be no strategy. A pinpoint missile 
strike is not a strategy. That is a problem for the people of 
Syria and it is part of a troubling pattern from the White 
House.
    In 100 short days, the administration has escalated 
tensions with North Korea with reckless saber-rattling, gone 
hot and cold on China, cozied up to Putin, and caused 
diplomatic embarrassment for some of our closest allies. At the 
same time, most top State Department posts remain vacant and 
the expertise of our diplomats is clearly being ignored. You 
cannot fly by the seat of your pants when it comes to foreign 
policy.
    On the global stage, policy by improvisation confuses our 
friends and tees up opportunities for our adversaries. For 
example, I am convinced that the administration's reversal on a 
long-held policy of removing Assad emboldened him to carry out 
the sarin gas attack in the first place.
    If indeed there is a strategy, Congress has been kept in 
the dark. We were told that the administration would soon 
present us with its plan. That has not happened.
    I think back to the 2011 strike in Libya, which also took 
place during a recess, and there was a lot of criticism for 
that, but the week Congress returned, Secretary Clinton, 
Secretary Gates, Chair of the Joint Chiefs Mullen, and DNI 
Clapper were all here on Capitol Hill telling lawmakers about 
the path forward. Whether we agreed with it or didn't agree 
with it, we at least learned about it. So far, no such briefing 
has been scheduled on Syria. And of course, no administration 
witnesses are testifying before us today because so few senior 
State Department officials are in place.
    So while we wait for the administration to draw up a 
strategy, there are a few things that the President and his 
team should bear in mind. First, military action alone will not 
solve the crisis in Syria. Only a political transition, one 
that removes Assad from power, will put the Syrian people on 
the path toward rebuilding and re-charting the course for their 
country's future. We need the means to help push that process 
forward.
    My bill that I introduced with Chairman Royce, the Caesar 
Syria Civilian Protection Act, would provide some of those 
tools to pressure Assad and his patrons in Moscow and Tehran. 
The House passed the bill unanimously last year and I am 
grateful to Chairman Royce for planning to mark up this 
legislation again next week.
    We also need senior diplomats in place who can drive the 
policies that will lead to a solution. It is nearly May. The 
President has only just announced his pick for Deputy Secretary 
of State and he hasn't even nominated an Under Secretary for 
Political Affairs, or Assistant Secretary for Near Eastern 
Affairs. And rather than working to fill these vacancies as 
quickly as possible, the administration, instead, seems intent 
on slashing the resources needed to conduct effective 
diplomacy. We learned about that at the last hearing we had.
    Second, there must be no further American military action 
in Syria without congressional say-so. The 60-day War Powers 
Resolution clock started ticking when President Trump notified 
Congress of the missile strike. The President must come to 
Congress if the Syria strategy includes military involvement. 
No matter anyone's view of how we should grapple with this 
problem, Congress' voice must be heard and we will not simply 
give this administration or any administration a blank check.
    For now, I will keep pushing the administration for answers 
and pressing for a strategy that will advance a political 
solution, get Assad out of power, and end the suffering of the 
Syrian people.
    I am grateful to our witnesses for sharing their views on 
what such a strategy looks like and I yield back the balance of 
my time.
    Chairman Royce. Thank you, Mr. Engel. We did pass our bill 
out of this committee and out of the House last year. We are 
going to have an opportunity, in light of events--we couldn't 
get it out of the Senate last year but we are going to try to 
get it out of the Senate this year.
    Mr. Engel. Thank you, Mr. Chairman and, as usual, your help 
was invaluable.
    Chairman Royce. Thank you, Mr. Engel.
    And now this morning we are pleased to be joined by a 
distinguished panel. Mr. Mike Singh is the managing director of 
the Washington Institute for Near East Policy and previously he 
served at the White House, where he oversaw the Middle East 
policy from 2005 to 2008.
    And we have Mr. Charles Lister. He is a Senior Fellow at 
the Middle East Initiative. Previously, Mr. Lister was a 
visiting fellow at the Brookings Institution. He has been 
deeply focused on Syria policy for some time.
    Dr. Dafna Rand is an adjunct professor at the National 
Defense University. Previously, she served as the Deputy 
Assistant Secretary of State in the Bureau for Democracy, Human 
Rights, and Labor.
    So without objection, our witnesses' full prepared 
statements are going to be made part of the record and members 
here will have 5 calendar days to submit any statements as 
well, or any questions of you, or any extraneous materials for 
the record.
    And so, Mr. Singh, this always works best if you could 
summarize your remarks and we will begin with you.

   STATEMENT OF MR. MICHAEL SINGH, LANE-SWIG SENIOR FELLOW, 
   MANAGING DIRECTOR, THE WASHINGTON INSTITUTE FOR NEAR EAST 
                             POLICY

    Mr. Singh. Mr. Chairman, Ranking Member Engel, members of 
the committee, thank you for having me here and thank you for 
your hard work on this issue.
    Our past efforts to resolve or contain the conflict in 
Syria did not succeed; far from it. It is not now a civil war 
but a regional conflict that has drawn in Syria's neighbors and 
has had broad geopolitical ramifications beyond, including 
terrorism, and a refugee crisis in Europe, and political 
turbulence throughout the West.
    Our problem in Syria is not simply an ISIS problem but runs 
much deeper and I want to talk about those broader 
ramifications.
    The Trump administration's start, I agree with both of you, 
has been promising. The April 7th strike was decisive and it 
served a clear, if narrow, interest in deterring the use of 
chemical weapons and enhancing our military credibility in 
Syria. But devising our broader Syria policy will be much more 
complicated and will require a similarly clear understanding of 
our interests and objectives and the development of options to 
advance them. And I think we need to begin with a quick 
assessment of the situation, which will reveal just how much 
the conflict has broiled the regional politics.
    This is not, in fact, a single conflict but it is playing 
out over I would say four distinct zones. Each one of those 
zones has different internal and external actors involved. So 
for example, in western Syria, both Iran and Russia are 
defending the Assad regime's remaining territory, which is 
stronger, but for different reasons. Iran seeks to preserve 
Syria as a channel for the projection of power into the Levant; 
whereas, Russia I think wants to reassert a global role, thwart 
American aims in Syria, and preserve and expand its influence 
in the Middle East.
    Turkey, for its part, has long advocated that the Assad 
regime--that Assad, himself, should step aside. But 
increasingly, Ankara is focused on preventing the 
aggrandizement of the Kurds. And its chief aims now seem to be 
preventing the establishment of a continuous Kurdish territory 
along the Syrian side of the Turkish border and preventing the 
United States from providing heavy weapons and training to the 
Kurds and their Arab partners in the SDF, the Syrian Democratic 
Forces.
    If we look at Israel, Israel, for its part, is alarmed at 
the possibility of Iran and Hezbollah establishing a presence 
along the Golan Heights and very wary about what seems to be an 
emerging Russia-Iran-Hezbollah axis.
    And then finally, Jordan, our other good partner in this 
region, worries about new refugee flows. It is already dealing 
with almost a million refugees, as well as the ISIS and Iranian 
presence on its northwestern border.
    It is an enormously complex situation and I think we need 
to avoid framing our policy as an effort to sort of solve 
Syria, as it were, in one fell swoop or one neat package. 
Instead, we need to focus on setting discrete objectives that 
will protect our interests and I recommend three in particular.
    First, I think we need to seek to prevent the Syrian 
conflict from further destabilizing the region. It could get 
worse, as bad as it is now in this region. So in western Syria, 
including the Idlib region, where the fight is increasingly 
between the Assad regime and its backers on the one hand and a 
jihadist-dominated opposition on the other, I think our chief 
concern needs to be for the millions of civilians who are 
caught in the middle of that fight.
    So, we should continue providing humanitarian relief--we 
have provided more than any other country so far--providing 
escape routes for those civilians. But I think we also need to 
make clear, building on the April 7th strike, that further 
atrocities against civilians by Assad, and by his backers, 
could prompt a further use of force. I think that credible 
military threat needs to be there.
    In southern Syria, we need to support our allies Israel and 
Jordan as they seek to prevent the conflict from spilling over 
their borders and as they seek to push ISIS back from their 
borders.
    And then in northern Syria, where we have recently had this 
Turkish bombing of Kurdish positions, I think our chief aim 
needs to be to calm those Turkish-Kurdish tensions, urging 
Ankara to not engage in any more uncoordinated bombing but also 
urging the Syrian Kurds, the YPG, to sever their ties with the 
PKK, which is a terrorist group and where Turkey has a 
legitimate concern.
    And as we plan Raqqa's liberation, I think we need to aim, 
ideally, to keep local Arab forces up front and to involve both 
the Turks and Kurds to the extent we can in the operation, 
rather than choosing one or the other in a way that will 
unbalance the politics there.
    I think we also need to consider modestly increasing our 
own troop commitment, as we have in northern Iraq, so that we 
can play an effective coordinating role between those various 
forces.
    Our second objective, I think, should be to push back on 
Iran and prevent it from using the Syrian conflict to expand 
its power. Iran is deeply entrenched in western Syria but it 
shouldn't get a free pass for its use of foreign fighters and 
its support for the Assad regime. And we need to keep up the 
pressure on Iran and Iranian entities that are involved in this 
effort. And now is the time also to ramp up the pressure on 
Hezbollah and to renew our support for the Government of 
Lebanon, which is deeply involved in this issue as well.
    And then finally, we need to work with Israel and Jordan to 
ensure that Iran and its proxies don't establish a new front 
along the Golan Heights that I think would inflame tensions in 
this region for years to come.
    Finally, thirdly, and quickly, our third objective needs to 
be to ensure that ISIS and al-Qaeda are denied safe haven after 
Raqqa's liberation so they can't return, so we are not dealing 
with this problem yet again in the coming years.
    So the training and equipment we provide those local 
partners I think needs to be oriented not just toward defeating 
ISIS, not just that near-term goal, but also providing security 
for the local population afterwards. And we shouldn't just 
support security forces. We need to support local civil society 
who can help with the governance and rebuilding of eastern 
Syria.
    I think both of these efforts will require international 
assistance and I think, to the extent we can, we should push 
our Arab allies to get involved in that effort, rather than 
having this be a U.S.-only effort.
    Just in closing, members of the committee, it is critical 
that we defeat ISIS but how we go about defeating ISIS and how 
we pursue our other aims in Syria are going to have lasting 
ramifications for the geopolitics of the Middle East and for 
our own security.
    Thank you.
    [The prepared statement of Mr. Singh follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you.
    Mr. Lister.

  STATEMENT OF MR. CHARLES LISTER, SENIOR FELLOW, MIDDLE EAST 
                           INSTITUTE

    Mr. Lister. Chairman Royce, Ranking Member Engel, members 
of the committee, thank you for inviting me here today to 
testify on this very important subject.
    Today, the Assad regime has sat more comfortably in 
Damascus than at any point since the start of the crisis in 
early 2011. Its recent use of chemical weapons is almost 
certainly a result of that confidence. However, if anyone 
believes that Assad is now the key to stabilizing Syria, they 
are sorely mistaken. Assad will never be capable of putting 
Syria back together again. Not only does his continued survival 
represent radicalization gold dust but it also fuels the 
continued exodus of his own population.
    So what now? Clearly, the status quo is not working. 
Determined U.S. leadership backed up by a credible threat of 
force and a holistic underpinning strategy represents the best 
opportunity to strong-arm actors into a phase of meaningful de-
escalation, out of which a durable negotiation process may 
eventually result.
    Punitive strikes and other assertive acts of diplomacy will 
be inevitable but if anything is now clear, it is that we have 
far more freedom of action in Syria than the previous 
administration was ever willing to admit. Opponents of limited 
U.S. intervention, who long and confidently pronounced the 
inevitability of conflict of Russia, are now faced with the 
reality that Russia failed to lift a finger when American 
missiles careened toward Assad regime targets.
    The first step to developing a more effective Syria policy 
is to acknowledge that Syria can be divided into dozens of 
unique semi-contained conflicts and that countering terrorism 
isn't enough to protect our interests. We need a holistic 
strategy that treats all of Syria's various symptoms as 
interlinked components of one big root cause.
    The fight against ISIS in Syria has made significant 
progress but we must acknowledge the challenges ahead and the 
disadvantageous effects of certain aspects of our strategy. The 
big looming challenge is the fight for Raqqa and the issue at 
hand is who our local partners are for that battle. The favored 
status given thus far to the Kurdish YPG has created serious 
issues with our NATO ally Turkey, which claims the YPG is 
affiliated to the PKK, a movement that we, ourselves, consider 
a terrorist organization. In fact, the YPG's direct affiliation 
with the PKK was publicly acknowledge repeatedly by our very 
own National Counterterrorism Center, until we began working 
with the group in 2014.
    We need Turkey as a constructive partner. Laudable efforts 
have been undertaken to recruit Arabs to fight alongside the 
YPG but the YPG retains overwhelming influence over tactics, 
strategy, and outcomes. The YPG also maintains ambiguous 
relations with the Assad regime. Already, territory captured 
from ISIS thanks to intensive U.S. assistance has been handed 
back to the Assad regime and to Russia. A YPG-led victory in 
Raqqa would almost certainly lead to a similar result, which 
would embolden extremists and create the conditions for new 
conflict.
    We do not need to rush Raqqa and it is not at all clear 
that our existing partners are capable of taking the city. 
Instead, we should use our influence with Turkey to push for a 
ceasefire with the PKK, which may help ease tensions with the 
YPG in Syria. As part of a package deal, we could then offer to 
include a portion of Turkey's anti-Assad forces, most of which 
are already vetted by the CIA and CENTCOM, into a broader Raqqa 
offensive. This would be a similar arrangement to that which we 
worked out for Mosul in Iraq.
    While our eyes have been firmly fixed on ISIS, al-Qaeda has 
thrived in Syria. It sought to deeply embed itself into Syria's 
broad opposition movement. It has adapted its narrative to fit 
that of much of the opposition and it studiously avoided many 
of the extremist practices typically associated with al-Qaeda. 
This use of what I call controlled pragmatism is in marked 
difference from ISIS and means that countering al-Qaeda in 
Syria necessitates the use of a very different toolkit. This is 
a struggle defined by a competition for narrative victory. Six 
years of violence and no determined international action to 
stop it has provided al-Qaeda with an increasingly pliable 
population and an opportunity to exploit its principle 
advantage, its power in battle. Determined action to protect 
civilians and deter regime war crimes, paired with a 
substantial reduction in conflict would represent a serious 
threat to al-Qaeda.
    However, greater pressure is needed on its most important 
area of operations, the Province of Idlib. This is a problem 
that only Turkey is well-placed to tackle, though it would 
require substantial U.S. support. Here, we would seek to 
replicate Turkey's actions against ISIS and the YPG north of 
Aleppo to create a reality on the ground of steadily expanding 
ink spots. In Aleppo, those ink spots have since turned into de 
facto safe zones from which adversaries were defeated, al-Qaeda 
fled, reconstruction has now re-begun, refugees are returning, 
moderate rebel groups are being trained, and police are taking 
over from armed groups. The opposition interim government now 
plans to establish offices in this area.
    Beyond countering terrorism, there is no immediate opening 
for a nationwide settlement. As such, we should pursue an 
interim solution, imposing calm to distinct geographic zones. 
Creating zones of calm along Syria's borders will assist an 
eventual process of refugee resettlement and constrain or even 
stop the flow of weapons and money intended for armed 
activities. It would give opposition territories the 
opportunity to begin governance and service provision free from 
aerial bombing and it will allow some level of interim 
reconstruction to begin.
    Creating multiple facts on the ground will also represent a 
considerable source of pressure on Assad and may eventually 
allow for a meaningful initiation of negotiations. For this 
reason, the United States would need to pursue an intensive 
track of bilateral negotiations with Russia throughout the 
lead-up to and as these zones of calm take form.
    For this reason, America and its allies must be prepared 
for enforcement. Credible threats of punitive force can create 
meaningful diplomatic leverage but only when part of a clearly 
defined strategy.
    Finally, this deterrence should encompass more than the use 
of internationally banned weapons. It is important for us to 
establish a moral equivalency. Conventional weapons are far 
more deadly than sarin gas. In fact, Assad's aerial bombing of 
his own population has killed at least 57 times as many people 
as the use of chemicals and banned chemical weapons. It should 
not be a matter of the murder weapon that defines whether 
murder is acceptable or not.
    Thank you.
    [The prepared statement of Mr. Lister follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you.
    Dr. Dafna Rand.

STATEMENT OF DAFNA H. RAND, PH.D., ADJUNCT PROFESSOR, NATIONAL 
                       DEFENSE UNIVERSITY

    Ms. Rand. Thank you. Thank you. Good morning, Chairman 
Royce, Ranking Member Engel, members of the committee. Thank 
you for inviting me to testify.
    Mr. Chairman, you mentioned the White Helmets and I would 
like to start there because I agree that it is a remarkable 
story. I would note that 140 or so of these White Helmets, 
these civilian protection forces, have been directly targeted 
when they go out to rescue. So there have been 140 casualties 
in the past 2 years alone. That is just one statistic of the 
suffering, displacement, and state-led atrocities that have 
occurred in Syria. Eighty percent of the population is now in 
need of humanitarian assistance, 12 million Syrians are 
displaced inside and outside the country. In short, this is the 
greatest humanitarian tragedy and crisis in our current world 
today.
    So thank you, Mr. Chairman and Ranking Member Engel, and 
members of the committee for making and keep the Syrian people 
at the center of your policymaking work here.
    The strikes on April 6th may have been a justifiable 
appropriate response to the use of sarin gas against Khan 
Sheikhoun. Yet, these strikes appear to be divorced from a 
larger strategy for U.S. engagement. It is particularly 
alarming that the administration comments on Syria policy after 
these strikes continue to be so disjointed and unclear. 
Americans, our allies, and the Syrian people would benefit from 
understanding what these strikes signify and where they fit 
within the larger policy goals.
    I see at least four objectives for the U.S. in Syria and 
each will require a sustained strategy that combines public and 
private diplomacy. None of these will succeed without a fully 
staffed and empowered State Department serving as a coequal in 
the interagency and none of them can be sustained without 
adequate foreign assistance.
    First, as my colleagues have mentioned, a negotiated 
agreement in the de-escalation of the fighting should be the 
most immediate and most important objective. Fighting ISIS, 
countering WMD, helping civilians, these goals are very 
critical but they will all be enabled by conflict resolution. 
Because this is a foundational objective, it is alarming to 
read public statements from the administration flippantly 
suggesting that whether Assad stays or goes is irrelevant. 
Defining the end game as a negotiated settlement between the 
regime and the opposition is the critical first task.
    Secretary Tillerson will have to use these strikes and the 
leverage they have generated to push Moscow back to a position 
where it will be able and willing to be a genuine partner. That 
means holding Moscow accountable publicly and privately when 
ceasefires promised by the regime never materialize and when 
aid convoys promised by Damascus and organized by the U.N. 
never reach the besieged areas.
    It is true that pushing Moscow and Tehran to make Damascus 
concede will be very, very tough but we have leverage. For 
example, let's refuse CT cooperation to Moscow if it doesn't 
comply with the next round of de-escalation or humanitarian 
talks.
    Second, defeating ISIS is an obvious priority but the 
administration needs to be smart about the diplomacy and 
foreign assistance that will sustain any military offensive. 
Pushing Daesh out of Raqqa will be the easy part. What will be 
hard will be working with Turkey to negotiate YPG influence, as 
has been mentioned, or to ensure that the SAC, the Syrian Arab 
Coalition, and the SDF, the combination of Kurdish and Arab 
liberators, can effectively govern this very vast area of 
Syria.
    What we know about global terrorism is this: They prey on 
ungoverned spaces remote from central control, where citizens 
are disaffected and angry. We cannot let these territories of 
Syria fall into this trap again. And that is why I am 
particularly concerned about rumored and alleged reductions in 
things like food aid or reductions in support for governance to 
local councils that will be formed in the wake of the Daesh 
liberation in these areas of Syria.
    And because a sustainable defeat of ISIS requires regional 
consideration, I am concerned about reports that ESF to Jordan, 
to Tunisia, to Lebanon are reportedly going to be cut.
    Third, the chemical weapons deterrence is a key objective. 
The strikes may deter Assad from using CW again. We don't 
really know because he has been using CW as a weapon of 
desperation. Still, we need to also continue the really hard 
multilateral diplomatic work.
    I would note Russia's relative cooperation with the 2013 
U.N. Resolutions on the U.N. regarding Syria's gas attack and 
what generally the 2013 to 2014 U.N. Organization for the 
Prohibition of Chemical Weapons, the OPCW's efforts to destroy 
1300 tons of weapons. Clearly, this was imperfect. Clearly, 
there was cheating and hidden weapons but for Syria's neighbors 
and for the citizens and for U.S. troops on the ground, 
certainly destroying something was better than nothing. And 
that is why today multilateral diplomacy is critical. That is 
why we need to continue to support the OPCW and U.N. 
investigatory bodies and we will need to do this through 
diplomacy by pushing the Russians and other members of the 
international community.
    Fourth, protecting the Syrian people must remain at the 
heart of U.S. policy in Syria. This effort includes 
humanitarian assistance, support for civil society, and support 
for local governance in liberated and opposition-controlled 
areas, and it includes accountability measure for the ongoing 
human rights violations and atrocities that have been 
committed, including accountability for the Khan Sheikhoun 
attack.
    Since the start of this conflict, the U.S. has been the 
largest single bilateral donor of humanitarian assistance to 
the Syrian people but in the past months, the aid that is 
flowing from the U.S. and other donor nations has not been 
reaching most of the Syrians in need. Some organizations on the 
ground are estimating that only 10 percent of international aid 
is arriving into opposition-controlled areas of Syria. That is 
over five million people. So this crisis of access will require 
continued American leadership.
    In conclusion, absent a clear and consistent articulation 
of U.S. strategy toward Syria, these limited strikes earlier 
this month will have little to no material impact. In fact, 
there is a danger that our friends may feel, over time, even 
more betrayed, as many within Syria and the region cheered the 
strikes on the premise that they signaled a significant shift 
in policy.
    A clear strategy will help us mobilize our partners. For 
example, at this particular moment, we need our Gulf partners 
to help us play a moderating role with the armed opposition. So 
pushing for the resumption of negotiations will be hard but a 
strategy that focuses on diplomacy and U.S. leadership is the 
only option.
    Finally, I thank this committee for understanding how a 
fully funded, empowered State Department and U.S. Agency for 
International Development will be critical to pursue all of the 
objectives that I have outlined.
    I look forward to your questions.
    [The prepared statement of Ms. Rand follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you.
    You know it seems that Russia and Iran have very different 
goals here for Syria and some of you have commented on that. In 
terms of trying to figure out next steps, it looks as through 
the goal on the part of the Iranians is a land bridge that 
would stretch to Hezbollah-controlled southern Lebanon, where 
for some time now the Islamic Republic of Iran has been trying 
to move these larger and larger missiles or longer range 
missiles. I guess this morning there are reports that the IDF 
put a strike in against a shipment that had landed of these 
missiles, right?
    So, as Iran's obsession with their stated policy of wiping 
Israel off the map continues, you have Moscow with a very 
different goal. Their goal is not to wipe out Israel. Their 
goal seems to be to increase Russia's leverage. And I wonder if 
that suggests that the two could be split here in terms of the 
long-term interest of trying to get some stability, because as 
long as the Iranians remain on the ground, the problem there is 
going to be the recruitment of training for additional 
Hezbollah units that you are now seeing, as well as the in-
migration of the Revolutionary Guard Corps on the ground, and 
these other entities, they are not seeking to calm the 
situation. I mean all across the Middle East they are creating 
additional, whether it is Yemen or Bahrain, they are involved 
in conflict.
    And I would just ask our panelists for their opinion on a 
strategy that would allow some kind of a direct negotiation on 
that concept and whether you think it would be possible because 
that might allow us then to move Assad out of the equation and 
bring in someone else on the Alawite side that would have an 
interest in the long-term survivability of Syria as a state.
    Mr. Singh.
    Mr. Singh. Sure. Well, Mr. Chairman, I think you are 
absolutely right about differing Russian and Iranian interests, 
as I mentioned in my testimony.
    I think the challenge is in the short-term I think there is 
a sort of co-dependency between Russia, and Iran, and Syria. 
They need each other. Russia is providing actually quite a 
small military force but a decisive one, providing air cover, 
for example, for the ground forces which are largely provided 
by the Iranians. The Iranians have contributed, from the 
numbers I have seen, upwards of 100,000 fighters, not Iranians 
all but Iranian-backed fighters. So theirs is sort of 
complementary to Russian and Iranian activities there and I 
think either would be hard-pressed to succeed without the 
other.
    But I do think that Iran is committed to the Assad regime 
in a way that, perhaps over the long-run, Russia isn't because 
I think that Iran could not be guaranteed its position in Syria 
with any ruler other than Bashar al-Assad, even if it were 
someone else from his sector, someone else from his sort of 
territory.
    And it does, over the long-run, perhaps open up the 
possibility of splitting the two. But I think it is very much 
over the long-run. I think it is not something that it is there 
in the short-term.
    Perhaps the Russians will come to see that they are 
embroiled in a counterinsurgency that there is very little easy 
escape from. No one is going to come and rescue the Russians 
from the insurgency which they are facing around Idlib, and 
Aleppo, and so on and so forth. We are certainly not going to. 
We certainly shouldn't and I don't think anyone else is 
prepared to do so either. And hopefully, that will prompt the 
Russians, at some point, to recognize, especially if there is a 
credible threat of American military force.
    Chairman Royce. Well, maybe Mr. Lister can comment on this 
but it seems to me that the Russian objective here is partly to 
maintain access to the Mediterranean. Their goal is not 
necessarily to see this thing deepen and yet, for the Iranians, 
they are gaining battlefield experience for their forces. They 
are honing their skills. They are replacing Sunni populations 
with Lebanese Hezbollah families that they are bringing in to 
Old Damascus and areas like this. This is the exact opposite, 
it would seem to me, of Russia's long-term interest.
    And so Mr. Lister, what is your observations?
    Mr. Lister. Thank you for the question.
    For me, this is essentially about differing goals and 
differing needs between Iran and Russia. These are two 
countries playing extremely different, though as my colleague 
says, complementary roles in Syria.
    For Russia, the objective is to compete and outplay the 
United States and to show that we aren't the power that we 
think we are, that we are not capable of exerting the kind of 
influence in the region that we used to, and also, of course, 
immediately to shore up what was in 2011 Russia's most reliable 
and most intensive relationship in the region, which was the 
Assad regime. Since the Soviet Union times, Russia has relied 
on the Syrian Army----
    Chairman Royce. Right.
    Mr. Lister [continuing]. Intensively for a relationship in 
the region, almost exclusively. And so for Russia, this is a 
strategic or geostrategic calculous, largely as a reflection of 
its rivalry with the United States.
    And for Iran, this is a zero-sum issue. There is, as of 
now, in today's dynamics, no negotiation for Iran. It is Assad, 
or nothing, or we carry on fighting.
    And the key issue, the key worry we should all have in our 
minds, is that we have invested so much energy over the last 2 
or 3 years based on an assumption that Russia has the leverage 
necessary to result in the kind of policy result that we want, 
which is a negotiation process that means something and that 
results in a conclusion that we all want, which is an end to 
conflict and some extent of political transition in Damascus.
    Unfortunately, as my colleague said, Russia is actually 
operating in Syria on a shoe string with very little ground 
influence, beyond Special Forces dotted around in a few 
specific areas.
    You know I have spent the last 18 months meeting 
periodically with Russian officials who work on the Syrian 
issue. And one of the things they revealed to me, which is very 
interesting, is that as of 2 or 3 months ago, the assessment 
within Moscow was that the Syrian Army had no more than 20,000 
offensively deployable, sufficiently trained, and loyal 
soldiers that the Russian Government was willing to work 
alongside--20,000 for all of Syria. It is a pittance.
    In comparison, the Iranian Government has successfully 
established what I would estimate to be at least 150,000 
militiamen, Syrians, predominately, but also Iraqis, Lebanese, 
Syrians, Afghans, Pakistanis, and possibly some Yemenis. Twenty 
thousand Syrian forces as compared to 150,000 militiamen who 
are there potentially to die for a religious cause, rather than 
for a strategic cause, is an issue we need to worry about in 
terms of how we invest our resources, in terms of pushing 
things to create the possible conditions for the result that we 
want.
    Chairman Royce. Thank you. Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman. Before I ask my 
questions, I ask unanimous consent to enter two statements into 
the record. One is a statement by Raed al-Saleh, head of the 
Syria Civil Defense, as you mentioned before, known as the 
White Helmets, on behalf of Nobel Peace Prize-nominated rescue 
organization that has rescued over 90,000 Syrian lives.
    Chairman Royce. Without objection.
    Mr. Engel. And the second statement is from Church World 
Service.
    Chairman Royce. Again, without objection.
    Mr. Engel. Thank you, Mr. Chairman.
    The White House Press Secretary Sean Spicer said in a press 
briefing, shortly after the U.S. airstrikes, if you gas a baby, 
if you put a barrel bomb into innocent people, I think you will 
see a response from this President.
    This appeared to add a new red line to U.S. policy that 
Assad's use of barrel bombs, an all too frequent occurrence, 
would invite a U.S. response. But later the White House 
clarified that he meant chlorine-filled barrel bombs.
    Now for anyone who thinks that I am going tough on the 
White House, maybe you should know that I was equally tough on 
the previous administration's miscalculation that Assad would 
somehow fall and so cause them to do things or not do things. 
And of course, here we are many years later, Assad hasn't 
fallen. I think we made a terrible mistake when we didn't aid 
the Free Syrian Army 4 years ago, when the President's national 
security team all was in favor. I think it was a 
miscalculation. I also think when you draw lines in the sand, 
you need to back up those lines but you also need to be 
consistent.
    And what we are seeing from the administration is there is 
an introduction and retraction of new red lines. It muddies 
U.S. strategy in Syria. And as I mentioned before, I think it 
is very important that the President tell the Congress what his 
plans are in Syria and then the Congress needs to give him 
authorization to make any kind of military moves.
    So when we have introduction and retraction of new red 
lines, it muddies the strategy in Syria. I want to ask Dr. 
Rand, how do we expect our allies and adversaries to react to 
this?
    Ms. Rand. Thank you, Congressman Engel. This is a big 
concern of mine as well, that the inconsistency is sending 
different signals and that our allies will see in the 
administration and White House's different statements what they 
want to hear. Right? So certain allies have different views and 
they will seize on one Secretary or another Secretary's 
statements, if they diverge, to say that is U.S. administration 
policy. That is a concern.
    On the issue of what is the red line, is it just a CW 
deterrence or is it a general deterrence about crimes against 
humanity, I would note that in the couple days after the sarin 
gas attacks, there were very damaging atrocities committed by 
the Syrian regime again. So if that, indeed, was Mr. Spicer's 
red line, it was passed already, shortly after the time he was 
making those statements.
    But I would agree with the concern about allies. I would 
also add the concern about the Syrian people, who are left 
confused about what is the new shift in U.S. policy toward 
intervention.
    Mr. Engel. Anybody else care to comment?
    Mr. Singh. Well, Congressman, I would agree with the 
general principle that credibility is important. And I think to 
have credibility, we also need to have clarity. I agree with 
that. And that is why it is important that we have a very 
rigorous policy process where we decide what are those lines 
are for the United States that sort of both threaten our 
interest, threaten civilians on the ground. What are we 
prepared to do in response? And then that we communicate those 
things to the appropriate channels. Sometimes a public message 
is right. Sometimes private messages to places like Moscow and 
elsewhere are the right methods.
    But that all requires a rigorous policy process and I think 
that will be the key for us.
    Mr. Engel. Thank you. Let me ask a question about the 
chemical weapons program. In 2013, the Organization for the 
Prohibition of Chemical Weapons certified, and we remember 
this, that it had removed 1300 tons of declared chemical 
weapons from Syria. And of course, we now know that Syria held 
back some chemical agents from declaration and removal because 
it used those agents in the April 4th sarin gas attack.
    Now, I supported the U.S. response, as I said before, 59 
Tomahawk missiles, because I thought it was an appropriate 
demonstration to Syria and their Russian enablers that there 
would be consequences for the use of chemical weapons. But 
these strikes are not a long-term solution and they will not 
help to eliminate the threat posed by Syria's continued 
possession of chemical weapons.
    So let me ask any of the witnesses what recommendations do 
you have to work toward full implementation of the U.N. 
Security Council Resolution 2118, which sought to remove 
Syria's chemical weapons, and what particular responsibility 
does Moscow have in the implementation of this resolution and 
in removing chemical weapons from Syria?
    Anyone who cares to answer.
    Ms. Rand. Sure, I will start. I think this is an excellent 
point. And I mentioned in my testimony there is a JIM, the 
Joint Investigative Mechanism, that was commissioned by the 
U.N. in 2015 to go and actually name perpetrators and some of 
the chemical weapons. And this mandate was extended last year 
to 2017. It will run out I think sometime this summer or the 
fall.
    So it is really critical. This is an urgent diplomatic--
again, it is not a sufficient diplomatic solution to the 
chemical weapons bomb, but it is part of the solution and it is 
urgent that the U.S. show its leadership at the U.N. and push 
Moscow and other powers to agree to continue this mandate of 
the JIM.
    Mr. Lister. I would add, if I may, you know frankly 
speaking, Russia bears the weight of responsibility for the 
fact that this chemical weapons attack took place. And we 
shouldn't forget that Russia had troops and almost certainly 
aircraft up until a certain time at this air base from which 
the attack was launched.
    We should all be asking the question, and I am sure we all 
are, did Russia in fact know that the Assad regime had retained 
some extent of its chemical weapons capabilities. And if it 
did, then we would be justified in, I think, putting and 
placing more pressure, whether through sanctions or other 
diplomatic means, on the Russian Government to force it to see, 
through a broader package of policies on Syria, the more 
holistic one that I described in my opening statement.
    But in the end, Russia isn't going to achieve its ultimate 
objective in Syria which is stability. For Russia, Syria is 
still something to be negotiated over. And I think what the 
Russians are discovering, almost on a week-by-week basis now, 
is that having invested resources in Syria and in rescuing the 
Assad regime, achieving their ultimate long-term objective 
isn't happening and it is not going to happen for a long time. 
So I do think we have a responsibility to put more pressure on 
Russia.
    And more broadly, I think the sanctions on I think 271 
Syrians connected to the chemical weapons program is a good 
step. I noted that a number of that size suggests that we are 
not just targeting senior officials but we are also targeting 
people further down the ladder of seniority and I think that is 
wise. I think using what I would term escalatory sanctions--
starting from the ground level and moving up--is an excellent 
way of putting more pressure and a sense of paranoia within the 
regime's military, intelligence, and otherwise the regime's 
apparatus, that we know what they are doing. We know who they 
are. We know everything about them and they will face 
consequences for being involved in these kind of criminal acts. 
And I think there is a lot that we can do to add to that 
pressure further.
    Mr. Singh. If I could just make a brief point, Congressman. 
I want to make sure that there is a clear understanding that 
this is not just a humanitarian issue for the United States 
because the CWC is a nonproliferation treaty. And if we allow 
that nonproliferation treaty to be breached, I think that has 
strategic ramifications for the United States for 
nonproliferation broadly. So we need to keep that frame of 
reference in mind as well.
    Mr. Engel. Thank you.
    Chairman Royce. Okay, we go to Ileana Ros-Lehtinen of 
Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    And while Congress must be consulted before any long-term 
escalation of force in Syria, I supported the missile strikes 
that took place earlier this month and I hope that they serve 
as a warning that the United States will no longer tolerate 
Assad's chemical weapons attacks against the innocent 
civilians. The missile strikes proved our willingness to use 
force. That is a necessary ingredient whose absence doomed any 
previous chance of a negotiated outcome in Syria.
    But I am still very concerned about the lack of a 
comprehensive strategy in Syria, a problem that has stretched 
across both administrations and our seeming insistence on 
treating the symptoms, rather than the disease. And as so many 
of us have said over the years, it is not possible to defeat 
ISIS while Assad remains in power, I fear that our narrow focus 
on short-term tactical successes will only exacerbate the 
problems that we are trying to solve.
    So I wanted to ask you, Mr. Lister, can we hope to defeat 
ISIS while Assad remains in power? A lot of you spoke about 
what would happen if. And how does Assad's presence and tactics 
contribute to the growth and the narrative appeal of ISIS, as 
well as the al-Qaeda-linked and other jihadist groups in Syria?
    And if Assad is not removed by countering Iran, by finding 
leverage with Russia, or otherwise, is it possible for this 
conflict and its associated costs to come to an end?
    Mr. Lister. Thank you very much for a really excellent 
question. And I think to answer it, we need to consider context 
as well, some historical background, but I will stay in the 
immediate term for now.
    The reason why we have had success against ISIS or one of 
the reasons why we have had success with little other negative 
knock-on effects up until now, is because ISIS purposefully 
detached itself from the other dynamics of the Syrian conflict. 
With the exception of about a 6-month period of time, ISIS 
never sought to work with the opposition. It never sought to 
become part of the revolution against the Assad regime. It 
explicitly sought to establish an Islamic State with or without 
help and it would kill anyone who got in its way.
    And for that reason, we have been able to attack ISIS in 
isolation from the rest of the conflict with relative success, 
up until now, but I think, as I hope is becoming clear, we are 
now seeing some of those disadvantageous knock-on effects 
becoming clear. For example, our NATO ally Turkey is 
effectively now at war with our local partner fighting ISIS, as 
of last night. And all of that is because, as you say, we 
didn't base all of this on a more holistic strategy. We didn't 
appreciate enough all of the broader dynamics. So, that is 
today.
    In terms of Assad staying, I think the most important thing 
to bear in mind here is some history. In 2003, when the United 
States prepared to invade Iraq, as in fact American troops 
crossed on day one, the Grand Mufti then in Syria, the State-
appointed, Assad-appointed Grand Mufti, issued a fatwa in which 
he declared it religiously obligatory on all Muslims globally 
to launch resistance movements in Iraq against American troops, 
using any means necessary. And that order was given to men and 
women. And that was, essentially, an instruction from the Assad 
Government.
    Within 11 days of the U.S. invasion of Iraq, 5,000 foreign 
jihadi fighters crossed into Iraq, crossed Syria's borders; 
they flew into Aleppo and Damascus airports; were bussed in 
government buses to the Iraqi border and waived through open 
border crossings.
    And in the 7 or 8 years that followed, during the war in 
Iraq, it would not be an exaggeration, I think to say, that 
hundreds of American troops would still be alive if the Assad 
regime had not continued its assistance to ISIS' predecessor 
movement, the Islamic State in Iraq. ISIS wouldn't be what it 
was today if those foreign jihadi fighters hadn't been given a 
free hand to train in Syria, to use Syrian Government medical 
facilities, and then to cross Syria's borders into Iraq.
    And that support for jihadists didn't stop when American 
troops left Iraq in 2010. In 2011, whilst the Assad regime was 
arresting pro-democracy protesters, and women, and children, it 
was releasing jihadists from prison. Two of the seven founding 
members of the al-Qaeda affiliate in Syria were released from 
prison at the beginning of the protests. At least ten, as far 
as I am aware, of ISIS' most senior leaders in Syria were 
released from Assad prisons under an amnesty in 2011.
    And since then, it is common knowledge that, at the very 
least, trade in gas, trade in other resources, has continued 
between the Assad regime. In fact, this very government here 
has sanctioned several Syrian officials for facilitating those 
trades.
    So the argument is right. I know I am taking some time but 
the argument is right to say that while Assad stays in power, 
there is very little chance that that kind of facilitation of 
jihadists for Syrian goals, for Assad regime reasons, will not 
continue. And most importantly, the narrative for their very 
existence will continue to exist.
    Ms. Ros-Lehtinen. Thank you very much, sir.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you.
    Mr. Greg Meeks from New York.
    Mr. Meeks. Thank you, Mr. Chairman. And I want to thank all 
three of the witnesses. I think you have been absolutely 
excellent and very insightful. And I really appreciate your 
testimony.
    Let me start by stating declaratively I think that any 
rational, reasonable person would strongly, as I do, condemn 
the atrocities that took place in Syria and the utilization of 
chemical weapons but I believe just overall because, as one of 
the witnesses testified, people are dying, whether it is by 
chemical weapons or by conventional weapons. Death is death and 
they are dying by the numbers and we have to make sure we get a 
handle on that. And that we must, and the whole international 
community, must put our best efforts into addressing the crises 
there.
    That has been what my position has been since the start of 
the conflict and it remains so today. That being said, many of 
my colleagues here, and as you have indicated, I think each and 
every one of you have indicated your thoughts on what should be 
next. I wish that the President of the United States would also 
tell us, as Members of Congress, what should be or what the 
strategy is next. You know we cannot be left wondering after 
the launch of 59 Tomahawk cruise missiles what Congress is to 
do. Congress should never be left wondering what next after the 
use of military force and never, especially in a situation 
where there is no imminent threat to our homeland. The United 
States needs--and why is that? Because we have a Constitution 
and the President should abide by that Constitution. And so the 
President should get congressional authorization for military 
action.
    And as I sit here, I am extremely uneasy that we have no 
updated AUMF. And the President has stated, basically, that he 
has acted impulsively, without clearly articulating a strategy 
on Syria. Why do I know that? Because the President said he 
happened to have seen a picture of babies and that made him 
decide to do something that he had said just a few weeks before 
that he wasn't going to do. So he just acted impulsively, 
without a real strategy as to what to do next.
    And when we talk about drawing red lines, and I felt this 
also, when President Obama had the red line, he came to 
Congress. Congress punted on what to do in Syria.
    So I would hope as we look to and ask President Trump to 
come to Congress, and I hope he does, that we don't punt. We 
listen to the issues. Let's take the responsibility ourselves.
    The most difficult decision for me, and I have been here 
for 19 years, the most difficult vote that I have had to make 
is the vote to make the determination of whether or not we were 
going to authorize the use of force, whether it was in the 
Kosovo struggles, in the Balkans when President Clinton was 
there, whether it was Iraq and Afghanistan. I want, and I think 
my constituents expect me, to have a vote in that regard and we 
must make sure that we have that. We cannot shirk our 
responsibility as Members of Congress.
    And so I don't want to then say, whether it is President 
Trump or any other President after him, to say we punted, as 
Members of Congress, and then we criticized what the President 
did do or didn't do thereafter. Let us, I mean we should do our 
jobs.
    Clearly, as I said, and someone mentioned Iraq, I think Mr. 
Lister did, clearly shock and awe. And many of us came back, 
many Members of Congress, came back after the shock and awe and 
we thought it was all over; we had won; it was victory. And 
then we saw that there was not strategy thereafter.
    Let us have learned from that lesson that we can't just be 
so high and happy because we have had--there was a strike, 59 
missiles that seemed to be sending a message that is over; we 
did the right thing. Let's talk now. Let's learn from what we 
didn't do in the past and talk a strategy and work with our 
allies.
    I think that Dr. Rand talked about how important it is to 
make sure we are having a dialogue and a conversation with our 
allies as well as to make sure we are doing what is on the 
ground.
    I think Mr. Lister was talking about how in fact during the 
war the Syrian Government was still active in putting folks in 
and trying to turn around the minds of individuals on the 
ground. Both he and Dr. Rand were absolutely correct. If we are 
cutting off humanitarian aid, if we are not putting in place 
things on the ground, if we are refusing to let refugees into 
the United States, we are not then doing what we need to do to 
make sure that even the folks on the ground to keep ISIS, or 
Daesh, as I call them, from recruiting individuals on the 
ground thinking that we are the bad guys.
    So I really had a question but I am out of time. I was just 
so impressed with your testimony and with the way that you have 
been answering questions.
    You know I think, Mr. Chairman, maybe this is the youngest 
panel we have had. We need to make sure we have more young 
people whose future is really on the line. They are really 
thinking about tomorrow because it is their today. And so this 
is on both sides, all the witnesses, you and Mr. Engel should 
be really complimented about the witnesses that you have 
brought here today.
    Chairman Royce. Thank you, Mr. Meeks.
    We now go to Dana Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much and I would like to 
echo what Mr. Meeks just said about the value of the testimony 
today.
    What is interesting is you sort of dumped a heap of facts 
onto us and you are trying to make some sense out of it, like 
some sort of a jigsaw puzzle. And here you are. You have 
studied this, you have spent your whole time studying, and you 
can't come up with what the jigsaw maps out of this quagmire 
is. And so we appreciate you letting us know the series of 
facts that we need to deal with and maybe we can work together 
and come up with some ideas.
    I was heartened that our chairman, Mr. Royce, whom I have 
deep respect for, during his questions mentioned how we might 
really benefit negotiating with Russia on this issue.
    Chairman Royce. Well, I didn't get to the second part of my 
question. We would replace Putin, as well as Assad, in 
negotiations. I just wanted to clarify, Mr. Rohrabacher.
    Mr. Rohrabacher. But what we heard today is that there was 
a civil war in Syria, an organized effort supported by 
outsiders to overthrow the Government of Assad. That civil war, 
where people came in to support that has now morphed into 
regional anarchy, basically. And let me just say that I don't 
believe that Assad was any more brutal, any more dictatorial 
than a number of our friends and allies in that region. If 
there was a civil war being financed against any number of 
those governments, they would wipe out their opponents. And I 
do believe there is a moral equivalency between dropping a bomb 
on people and killing those same people with gas. You are 
killing innocent people. We have to stop the killing and we 
have seen that there is killing of innocent people.
    And obviously, when we bombed, we ended up bombing their 
air base because 85 civilians suffered effects from gas and 
died. At the same time, while we are engaged in bombing in 
other parts nearby, and our bombs are killing ten times or five 
times that number of civilians, no. The killing should stop. 
That should be our goal and we should be willing to work with 
Russia in order to try to find some overall regional solution 
now and it shouldn't just be Assad has to go.
    Let me just suggest what Erdogan is doing now, especially 
in his latest attacks, Erdogan is doing more damage to our 
national security by his basically power grab inside his own 
country and his Islamicization of his own country, he is doing 
much more damage than Assad could ever have dreamed of doing to 
our security. And yet, we are going to continue giving support 
to Mr. Erdogan, even after this incredible power grab that he 
has just participated in, a corrupt election that gives him the 
power to move that country. And now we find he is actually 
attacking Kurds now, rather than just trying to work with us in 
some ways.
    Here is the question. All these facts that you are talking 
about and--again, I appreciate, deeply appreciate the facts 
that you have given us today to consider. Do we now need, if we 
are going to have peace in that region, a regional type of 
grand meeting somewhere like they did after World War I, and 
redraw the borders, and have newly accepted areas where the 
Kurds could have their area, and you could have various 
recognition, rather than trying to have a situation where today 
it obviously isn't working and we obviously have a double 
standard for Assad and Russia than we do for our own friends?
    So let me put that out on the table.
    Mr. Singh. Thank you, Congressman. I think that the way I 
would interpret what has happened here in Syria is maybe a 
little bit different in the sense that I see in 2011 a peaceful 
protest that was brutally suppressed by the Assad regime.
    Mr. Rohrabacher. And do you think any of our allies, the 
Saudis, the Qataris, the Kuwaitis, if they thought that there 
was a civil war being financed by some other country in their 
region, would not have been just as brutal as Assad was?
    Mr. Singh. Well, sir, I don't think that that was what 
happened here. I think this was, actually, as I said, peaceful 
protests by Syrians that were suppressed by the Syrian regime. 
And I think that the Syrian regime created the conditions for 
the rise of an extremist opposition that, as Charles pointed 
out----
    Mr. Rohrabacher. But you are talking about an evolution 
because what happens is, we have seen it over and over again, 
peaceful demonstrations, you have a dictator, a gangster, he 
slaughters innocent people and then all of a sudden it 
escalates. That has happened a dozen times.
    Mr. Singh. Well this is on a very different scale, 
Congressman, than anything that has happened in the region, as 
I think Dr. Rand pointed out because you have hundreds of 
thousands of people, millions of people displaced. And I think 
what we really need is now to show leadership, which we didn't 
show in the past, to get on the same page of our allies to try 
to resolve the situation, where we haven't in the past.
    Chairman Royce. Okay, we need to go to Mr. Bill Keating of 
Massachusetts.
    Mr. Keating. Well thank you, Mr. Chairman. And I want to 
thank the chairman and the ranking member because this 
committee, since I have been involved in it for several years 
now, has been thoughtful, and substantive in its action, and 
instrumental in many of our policies.
    And along those lines, I want to just mention that as 
valuable as the testimony is today, I want to see going 
forward. I see a pattern on these issues where we are not 
having Trump administration officials in front of this 
committee and I think that is important to flesh out the 
strategy itself.
    Chairman Royce. That is a good point, and if the gentleman 
will yield for a moment, Mr. Engel and I have had the 
opportunity to speak to the Secretary of State and we are 
extending an invitation to the committee.
    Mr. Keating. I am not surprised. Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Keating.
    Mr. Keating. And I just want to comment, too, that that 
will help flesh out a strategy and that is what we are talking 
about here.
    You know today's testimony and the brutal conflict itself 
has proven that ending these atrocities and reaching a 
resolution requires a strategy, a strategy that reflects the 
complexities on the ground and cooperation at the international 
level. And I think a one-off military strike, which I thought 
was appropriate, yet one that wasn't followed up with a plan, 
and the inadequate staff in the State Department to meaningful 
engage, and also budget proposals that undermine our ability to 
be strategic are all issues.
    Now, I also want to concentrate on something that I 
struggle with, and I think it has been brought up in today's 
testimony and that's the fact that Mr. Lister, in particular, 
started along these lines. In one sense, we are getting 
testimony and a general feeling among people looking at this 
issue that Assad is such a problem, we can't have a final 
resolution with his maintenance of power. Yet, we are also 
saying we need Russia to perform such a meaningful role in 
dealing with a resolution.
    And Mr. Lister started along an area I wanted to pursue 
when he said Russians were at that airbase before the chemical 
weapons attack. And there were open source and unofficial 
reports that Russian-controlled drones were going over the 
hospital prior to the attack doing intelligence and 
recognizance, for what purpose, ahead of time. And how 
complicit is Russia, not just in their ignoring their 
responsibilities under the treaty that was negotiated in 2013, 
but complicit in some of these actions? As Dr. Rand said, it 
doesn't matter how people are killed. They were complicit in, 
you know I think, just the slaughter of civilians in their 
bombing and their military tactics, the same way working side-
by-side with Assad.
    So how can Russia be so pivotal in one sense to what we are 
doing, if they were complicit with Assad and Assad complicates 
this? If you can, delve into that. I know it is a difficult 
question but I appreciate all your thoughts on it.
    Mr. Lister. If I may, it is an excellent question, again, 
and an extremely important one. This is the meaty, horrible 
side of politics. Russia is our direct adversary in terms of 
Syria policy and yet, it is also part of the solution. It will 
have to be part of the solution. If it is not part of the 
solution, we won't get a solution.
    The reason why I single out Russia as being part of that is 
largely because, as I said earlier, for Russia, Syria is 
something to be negotiated over. For Iran, this is zero-sum; 
there is nothing to negotiate.
    So our only opening here is to convince the Russians that 
their current plan of action is unsustainable and it won't lead 
to the eventual objective that they want, which is, ultimately, 
ideally, for Assad to be still be in Damascus and in control of 
100 percent of his territory. It is not going to happen.
    We also need to bear in mind, in terms of your complicity 
question, Russia has a very different military philosophy. We 
saw, I believe in 1990, in its operation in Grozny in Chechnya, 
the idea of fighting terrorism for Russia was scorched earth. 
And this is precisely how Russia has further emboldened Assad's 
scorched earth policy. This is why I described the Syrian Army 
as a result of----
    Mr. Keating. And my time is running out but I think it is 
important to distinguish as well there is such a perception I 
think in our country that Russia is our ally targeting ISIS. 
And frankly, that is not the case there. Could you just maybe 
throw some of your knowledge that you have in this area toward 
at least breaking up that myth, to a degree?
    Mr. Lister. Sure. Well, I would be lying to say that Russia 
hasn't fought ISIS but I would be telling the truth to say it 
is far from their first priority.
    Russia has pivoted on different priorities over time. When 
it has successfully negotiated with the international community 
to enforce a ceasefire between the opposition and the regime, 
it has then celebrated the success of having established a 
ceasefire, and then with all the world's media watching, 
pivoted to fight ISIS for a couple weeks.
    Mr. Keating. Well, thank you. My time is up. I would yield 
back but thank you for shedding some light on this.
    Chairman Royce. We go to Mr. Joe Wilson of South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman, and I am very grateful 
for the leadership today of Chairman Ed Royce and Ranking 
Member Eliot Engel to hold a hearing as we discuss the long-
term stability of not just Syria but the Middle East as a 
whole. And I am really pleased, too, how bipartisan this is. 
Indeed, I am happy to join with Congressman Greg Meeks to point 
out that we have a very insightful panel and I wish you well in 
your careers.
    More than 500,000 people have been killed and 14 million 
driven from their homes as the result of the unending conflict. 
This gruesomely sad situation should have been dealt with 
earlier and I am disheartened that it has taken until a few 
weeks ago where action was taken against Assad after he 
conducted another chemical weapons attack, committing mass 
murder against his own people.
    We find ourselves in a difficult situation today, as we 
have let Russia and Iran take an unnecessarily active role in 
shaping Syria's future. More should be done in Syria and more 
will be done.
    I want to thank all of you for the testimony. For each of 
you, how do you assess the humanitarian crisis in Syria and the 
neighboring nations resolving itself? And I actually am trying 
to be positive. When we talk about a stable and prosperous 
Syria after the missile strikes, what you would you say are the 
most important milestones to achieve in order to incentivize 
millions of displaced Syrians to come home, beginning with Mr. 
Singh?
    Mr. Singh. Well thank you, Congressman. Thank you for your 
kind words.
    It is a difficult question because I think we are actually 
quite far away from--and I appreciate you are trying to be 
optimistic but I think we are actually quite far away from any 
such milestones.
    I do want to reiterate that while we talk quite a bit about 
Assad, and Russia, and Iran, and appropriately so, again, I 
think we need to bear in mind that this conflict is no longer 
sort of a single conflict and those actors, which are, I think, 
malign actors, are largely active in western Syria. And so you 
have these other quadrants of the conflict in which, for 
example, we wouldn't want to invite Assad, and the Russians, 
and the Iranians to have influence over the liberation of Raqqa 
and what is happening in eastern Syria.
    I think what we need to do is to look at each of these 
quadrants separately, do what we can to stabilize each of them, 
and to empower local actors. And in doing so, perhaps return 
some semblance of stability to them, at least in the short-term 
preventing them from getting worse.
    So as I look at southern Syria, for example, the Jordanians 
worry that renewed fighting in southern Syria, close to their 
border, where there is now an ISIS branch that has been 
established, could result in more refugee flows across their 
border. And as I said, they are already hosting up to upwards 
of a million refugees, which is a big strain. So at least 
preventing that from getting worse, I think, will be quite 
important.
    Once we have achieved some measure of stability in one or 
more of those quadrants, then I think over the longer term you 
can think about how do you knit this back together. But I think 
the reality is, for the foreseeable future, you are not going 
to see Syria reunified. There is no single actor that has that 
capability and we shouldn't pursue that goal, first and 
foremost. It should be stability in these zones.
    Mr. Lister. Very briefly, I would say I would refer you to 
my full written testimony in which I do try to suggest, at 
least, and as I said in my opening comments, that there are 
interim things that we can do which I think can alleviate some 
of the very dire humanitarian situation. And there are things 
we can do with relatively minimal effort, although increasing 
investment from where we currently stand to allow refugees to 
come back into Syria, to allow interim reconstruction to begin. 
And all of that compiled together results in some indirect 
pressure on the Assad regime to consider negotiations in a 
serious way.
    And I would encourage you to look, although it is far from 
perfect and certainly Turkey has problems in terms of being our 
ally at the moment, I would refer you to look at what was done 
in northern Aleppo and how effective, on a humanitarian level, 
that is now becoming. I would say 40,000 refugees have returned 
to that area now, which is, effectively, a safe zone, in the 
last 4 to 6 weeks or so. That gives us a signal of what is 
possible.
    Ms. Rand. Thank you, Congressman. I would agree completely 
with my colleagues and just add two more very important points.
    One, I think I mentioned earlier this access issue. There 
are five million or so Syrians living under opposition control 
or sort of non-regime control that are being denied access, it 
seems, to some of the humanitarian aid that even we are paying 
for. So the access issue, through the cross border, through 
Turkey, that is a key issue. That is a diplomatic issue. It is 
pushing our partners and pushing the Russians to help get this 
aid into Idlib Province and other provinces under the 
opposition control. So point number one is the access.
    And second, to go back to the very good questions from your 
colleague from Massachusetts, you know the Russians are playing 
not only a scorched earth policy but their air war tactics are 
driving civilians from Syria in rapid numbers. And so they turn 
it on and off and they divert, as Mr. Lister said, to the ISIS 
fight for a moment and then go back to targeting.
    But just in this month, I believe, the Russians have 
increased their targeting of civilians' Idlib homes and other 
places. And that really drives the refugee crisis because they 
are targeting hospitals. They are targeting civilian 
infrastructure sites. And that is what is making people leave 
their homes, when they are----
    Mr. Wilson. Thank you, each of you.
    Chairman Royce. Dr. Ami Bera.
    Mr. Bera. Thank you, Mr. Chairman. I want to expand on 
something that my colleague, Mr. Keating, touched on. You know 
none of us questions the measured response in response to the 
use of chemical weapons. But at this juncture, we are given a 
task as Members of Congress to start thinking about what next. 
And we can't do that without--none of you speak on behalf of 
the administration. You are providing your opinion.
    And let me just put that in context. When President Obama 
was asking Congress to take actions, we had a hearing in this 
very committee in September 2013. And again, no disrespect to 
the panel, but we had Secretary of Defense Hagel; we had 
Secretary of State Kerry; and we had the chairman of the Joint 
Chiefs General Dempsey, and we were able to ask those 
questions.
    So let me remind the President that he doesn't have the 
authorization to take additional actions against Assad without 
consultation of Congress. And I know both the chairman and 
ranking member are doing their best to get those individuals 
from the administration in front of this committee but the 
President needs to understand that separation of powers and it 
is incredibly important.
    Again, the measured response supported broadly by 
bipartisan members here, but in isolation, that response of 
Tomahawk missiles doesn't accomplish anything. It is the what 
next.
    And I appreciate the testimony of the witnesses. I think 
you are providing valuable insight and opinion but we need the 
administration here so we can ask directly what their strategy 
is. And thus far, the President hasn't stated what next 
strategy is and that is a real concern.
    You know, Dr. Rand, you touched on something and I think 
all of you would agree on when we think about our foreign 
policy: There are really three pillars here. There is certainly 
the defense but then there is the diplomacy and the development 
aspects of foreign policy. And when we think about staffing 
levels at the State Department, I am incredibly worried about 
our readiness for the second and third pillars of whatever the 
next strategy is.
    Dr. Rand, do you want to touch on the lack of staffing at 
State, and the vulnerability, and our readiness here?
    Ms. Rand. Thank you, Congressman for that question. First, 
I should say that there are many, many dedicated career civil 
servants, and foreign service officers, and the majority of the 
State Department, USAID, who are there working day in and day 
out on this issue, in particular. And I applaud their 
consistent contribution to this issue. It is a really tough 
tragedy to work on.
    But yes, that is a concern. The way the State Department 
works is that the political appointees who sit at the Deputy 
Assistant Secretary, Assistant Secretary level interact with 
their Department of Defense colleagues to make sure that the 
three Ds are actually working--the development, defense, and 
diplomacy--work synergically together comprehensively. If you 
don't have those level of appointees or those levels of leaders 
to go to the meetings and to work with the military, you are 
inherently going to erode the contributions at the civilian 
levels of U.N. foreign policy.
    Mr. Bera. Great. Would either one of you want to comment?
    Mr. Singh. I just want to say one thing on this. I had 
spent some time myself at the State Department. I was a Special 
Assistant to Secretaries Powell and Rice. And I think that I 
agree with Dr. Rand on the principle that we need to get the 
State Department staffed up. We need to staff our diplomacy. I 
am concerned about some of the reports of big cuts to the State 
Department budget.
    On the other hand, it is also important that we have the 
right organization at the State Department and, as I understand 
it, that is one of the things that Secretary Tillerson is 
looking at.
    Because I think one lesson that I would take from the last 
administration is that we have to be careful that we have a 
unified Middle East strategy and that we empower our officials 
to look not just at one slice of the salami, as it were, but 
that we empower them to look at the entire region. So I would 
like to, for example, see an Assistant Secretary of State for 
Middle Eastern Affairs who actually has the power to look at 
multiple issues across the region and integrate them into a 
single strategy.
    And I will also say my impression is, without minimizing 
your concerns, Congressman, that inside, for example, the 
National Security Council, the Trump administration is looking 
very carefully at this issue and what our strategy in Syria 
should be.
    Mr. Bera. And again, I would just reiterate that may be 
taking place but there is a role for Congress and there is a 
role for that consultation with Congress. That is how our 
Government is set up.
    And let me just say, not to minimize, we have great 
Government employees. We have great employees with the State, 
DoD, et cetera, that are doing a tremendous job.
    So, again, I would just urge the administration to respect 
this committee. And I will yield back.
    Chairman Royce. We go to Jeff Duncan of South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman.
    You know we have a great panel. You guys are very well-
versed in the topic. I just want to point out that we may have 
had some people from the administration here to testify, had 
some of the administration's appointments not been slow to be 
confirmed on the Senate side due to obstruction over there. And 
that is unfortunate because this is a very timely issue.
    I want to speak on behalf of my constituents because I get 
a lot of messages to my office, Facebook, Twitter, other things 
that say this: What are the U.S. national security interests 
that are at stake in Syria and how do these Syria-specific 
interests relate to broader U.S. regional or global interests? 
What are we doing in Syria? Why is it important to the United 
States?
    And I will start with Mr. Singh.
    Mr. Singh. Thank you, Congressman and it is a great 
question. And I think your constituents are absolutely right to 
ask that, as we should of every foreign policy issue.
    I think we have several interests at stake here. Number one 
is counterterrorism, first and foremost, because obviously we 
are focused on defeating ISIS and trying to do it in a way 
which is sustainable, so that ISIS doesn't come back. And I 
think that is something that ordinary Americans are concerned 
about.
    Second, we don't want to see Iran increase its power or 
increase its ability to project power, whether against our 
interests or against our allies like Israel and Jordan. And one 
thing that we have seen, as others have discussed, is that Iran 
is, in fact, attempting to do that.
    There is also an element here where we have Russia trying 
to thwart American interests, American objectives in this 
region and project its own power globally.
    And then just finally----
    Mr. Duncan. Let me just ask you--I mean we tried that in 
Vietnam. How is this going to be different when we try to 
thwart another country like Russia's engagement in a certain 
region of the world? Can you touch on that?
    Mr. Singh. Well, I don't know that we are aiming to thwart 
Russia's engagement in this region of the world. As my 
colleague mentioned, Russia has had influence in Syria for a 
long time. I think it is actually reverse. I think Russia is 
trying to, in principle, prevent the United States from 
succeeding in this region. And that is a big concern, I think, 
for any policymaker, whatever your view of what a relationship 
with Russia should be in the long-run.
    And I would just add one more thing, which is obviously we 
have seen this conflict cause tremendous instability in Europe. 
And instability in Europe is I think, also, a concern of the 
United States.
    Mr. Duncan. Any of you others want to comment on that?
    Mr. Lister. I don't want to repeat what my colleague has 
said but I would want to reiterate the obvious is, of course, 
counterterrorism as an interest. We focused almost explicitly 
on ISIS for the last several years but we seem to have 
forgotten al-Qaeda. And that, for me in my area of work, is a 
very significant concern and we can come to that, perhaps with 
further questions.
    The issue of international norms and American credibility 
is also at stake; I could speak at length at how American 
credibility has been severely damaged with regards to our 
treatment of the Syrian crisis over the last 6 years. And there 
are things, as my remarks said, that we can do to rescue some 
of that credibility.
    Iran and Hezbollah are increasing like we have never seen 
them before. Hezbollah is now arguably more powerful than some 
Eastern European militaries.
    Mr. Duncan. It is interesting that you mentioned that 
several times today about Iran and Hezbollah. Do you believe 
that Iran is emboldened based on the Iranian deal that gave 
them $400 billion plus that they could use to export terrorism 
to finance Hezbollah and other terrorist organizations? Do they 
feel more emboldened because they have the financial ability 
now from that deal?
    Mr. Lister. It is hard to say with certainty, although, I 
would find it hard to believe they didn't find themselves 
feeling more emboldened. I think the one key difference I can 
tell after the JCPOA in terms of Iran's strategy in Syria is 
that they have managed to train these Shia militiamen from all 
across the region, and far more intensively, and far more 
professionally than they were before. Whereas, we saw 2 or 3 
years ago tens of thousands compiled of Afghan Hazara Shia 
militiamen essentially being cannon fodder in strategic areas. 
They are now highly capable forces. And that can only have been 
the result of increased funding, logistical support, training 
facilities, and of course, travel across the region.
    Mr. Duncan. I know Dr. Rand wants to get in here and I have 
30 seconds but let me just make a point and ask Dr. Rand. Do 
you think if the United States hadn't pulled out of Iraq 
prematurely without leaving a contingency there, things would 
be different in western Iraq and Syria?
    Ms. Rand. Thank you, Congressman.
    You know the Iraq point is a very good one and I actually 
would disagree slightly that the Shia militia training, the 
cause and effect of that probably predates the JCPOA. It 
probably goes back many, many years. I mean you could date it 
even to 2006-2007, when these Shiite militias were forming.
    So I don't think it is the 2011-2010 period that we are 
talking about. I think we are talking--if you want to cite Iraq 
as a causal variable that led to the growth of the Shiite 
militia movement and their ability to train and seize power, I 
would go even earlier to 2005, 2006, 2007.
    Mr. Duncan. My time is up.
    Mr. Chairman, I reiterate it would be nice to have some 
administration officials here.
    Chairman Royce. Very good.
    Dina Titus of Nevada.
    Ms. Titus. Thank you, Mr. Chairman. I am afraid I am going 
to be saying the same thing that most of my colleagues have 
said because I share their sentiments.
    I think the meandering policies of the Trump administration 
have done nothing to end the civil war in Syria. We all agree 
it is a complicated situation. That is why we need a clear 
strategy with a focused execution and leadership and that is 
not what we have.
    The only thing this administration has been clear about is 
that Assad, apparently, gets to stay in power and he is the 
person who has been willing to kill more 500,000 of his own 
people.
    We haven't received any details about how the President 
wants to work with others in the area. We haven't seen this 
super-secret plan to get rid of ISIS. All we have seen are some 
so-called messages that have been sent to Iran and North Korea. 
And we have had the mother of all bombs dropped. We have had 
the Armata going somewhere; we don't know where. We have had 
saber-rattling that has upset some of our closest allies. It 
seems to me a kind of mass confusion and it is very 
unpredictable, which means it is unstable and can lead to 
mistakes.
    In the meantime, the State Department has been sidelined in 
the whole process of forming any kind of cohesive foreign 
policy strategy.
    I will agree with Mr. Keating, Dr. Bera, Mr. Duncan, you 
all are wonderful. You are the experts, obviously, but we have 
had nobody from the administration. Your analysis is 
interesting to us but you are think tank people. You are 
academics. You are former administration folks. You are not who 
is there now and supposed to be making the decisions.
    I know we are trying to get the Secretary here. Maybe we 
need to get Ivanka here--she has her brother whispering that 
she is the one who suggested they do the bombing--or Jared 
Kushner. Maybe they are the ones doing the policy. So maybe we 
need to bring them in front of us and ask them what is going 
on.
    In the meantime, I would just ask Dr. Rand, you know it has 
been 20 days since we dropped all the missiles on Syria. Now, 
President Trump all the time has said I will never forecast 
what I am going to do. Unlike the previous administration, I am 
not going to warn the enemy. Well, they warned Russia and they 
hightailed it out of there. Russia warned Syria; they got out 
of there. They were using the airfield the very next day. Those 
precious babies that so moved our President when they were hit 
with the chemical gas are still being killed by barrel bombs or 
are washing up on the shores of Greek islands because they are 
refugees.
    What was the effect of that, that message? What good did it 
do? Doctor, do you see any effect on the regime of that strike? 
Would you advise doing more strikes, less strikes, what?
    Ms. Rand. Yes, thank you Congresswoman. Three weeks later, 
it is hard to say exactly what the impact was in terms of the 
civil conflict, in terms of the war against ISIS, and in terms 
of our allies. I think there were a lot of raised hopes and 
expectations among many allies in many different parts of the 
world. And the neighbors had different views, as I said, and 
they read into the strikes what they want U.S. policy to be, 
which often conflicts with each other, which is of concern.
    But no, I didn't see a deterrent effect in terms of slowing 
down Assad's killing machine, nor slowing down Russian support 
for Assad in the past 3 weeks.
    Ms. Titus. So the message wasn't very clear or wasn't very 
effective?
    Ms. Rand. Yes, I don't think that message had that sort of 
impact.
    Ms. Titus. Mr. Lister?
    Mr. Lister. The message was clear in one single act but 
there is no strategy. The only impact I can say that we have 
seen is that there clearly is still some concern within the 
Assad regime about the fact that we did conduct the attack 
because they have redeployed almost of their aircraft to 
Russia's military base in the northwest of the country for 
protection.
    So clearly, the impact of one strike of 59 cruise missiles 
has made people ask questions about whether or not we will do 
it again but they shouldn't just be asking the questions. It 
should be clear from our side whether or not there will be any 
more or whether there will not be.
    So clearly, as I said in my opening remarks, we do need an 
underpinning strategy to have the proper effect that we want.
    Ms. Titus. All right.
    Mr. Singh. You know I confess I disagree slightly with my 
colleagues on this. I think of the narrow purpose of these 
strikes was to deter the use of chemical weapons and to lend 
credibility to American military threats, I think that it is 
possible that they will succeed in that narrow basis but, 
again, that is narrow. So I wouldn't be quite as negative about 
it, perhaps, as you suggest.
    Ms. Titus. I think that you say it is possible that it will 
succeed. What happens if it doesn't deter them and they do it 
again? That is the big question that looms out there. What 
next, I guess, is the point.
    Thank you, Mr. Chairman. I yield back.
    Chairman Royce. Scott Perry of Pennsylvania.
    Mr. Perry. Thanks, Mr. Chairman.
    As is often the case in this committee, I feel like I am 
compelled to correct the record by the time it comes to my 
opportunity to ask some questions. So I am just going to take 
some time to remind everybody who says that we must have a 
strategy and that this side opposes such a thing, nothing could 
be further from the truth. We believe that we must have a 
strategy and that the President must come to us as well for 
further and continued military action.
    That having been said, let's just be reminded that he has 
been in office for about 100 days. Meanwhile, for 8 years prior 
to this, we still didn't see a strategy and, when we did, well 
it was a red line, and then I am going to take some military 
action, and then when the American people disagree with it, 
then I am going to go to the Congress, and then I am not going 
to do anything. And if this is complicated, which it is, I 
would say that whatever the strategy was during the last 
administration has a lot to do with the complications we are 
dealing with right now, which includes Russian involvement, 
which the United States effectively kept out of the Middle East 
for 60 years under previous policy. Let's not forget that.
    All right, moving on. Does anybody on the panel believe 
that Moscow was aware of Assad's use of chemical weapons 
beforehand and/or approved of it or was it beyond its control, 
Russia? Mr. Singh, do you know?
    Mr. Singh. I don't know but it is hard for me to imagine 
that Russia and Iran wouldn't be aware of those types of 
things, given the integration between these militaries.
    Mr. Perry. Mr. Lister?
    Mr. Lister. Just to add briefly, the French Government 
released an investigation into the attack yesterday. They 
actually deployed assets to the town that was attacked.
    One of the things they found was the chemical hexamine was 
used as a mixing agent for sarin. The key thing about hexamine 
is it takes many, many hours, if not 1 to 2 days, to actually 
complete the process of forming sarin. It is composed of--it is 
a binary chemical.
    Mr. Perry. Right.
    Mr. Lister. There have been media reports here in the 
United States citing unnamed intelligence officials saying that 
we had detected people linked to the chemical weapons program 
going to the Shayrat Air Base in the days preceding the attack. 
If those reports are true and we indeed did detect those 
things, there is no way in my mind that Russia, having troops 
on the base itself, could not have known.
    Mr. Perry. Wouldn't know. Wouldn't know, right.
    So it would seem that Russia, potentially, at least at this 
point, could be complicit and it seems to be pointing in that 
direction.
    Dr. Rand, do you have a countervailing opinion?
    Ms. Rand. Well I agree. I think actually the most guilty 
behavior was afterwards, where there was a disinformation 
campaign in the weeks subsequent, where Russia was denying this 
attack to place in the face of the hospital reports from 
Turkey, the----
    Mr. Perry. Overwhelming evidence.
    Ms. Rand. Yes. So that actually, I don't know the answer to 
your question but that was pretty damning.
    Mr. Perry. To what extent can Assad defy Russia? I mean 
they are trying to influence. They have their base there. They 
want to keep Assad to that extent but I would agree they are 
looking for stability that they are not going to get. What kind 
of leash does he have? Does he have a pretty broad range of 
authority where he can still receive compliance from Russia and 
things like what we just discussed, potentially?
    Mr. Singh. That is an awfully tough question to answer, 
Congressman. I think he, as Charles mentioned, he needs Russia 
and Iran, especially, to have any hope of success militarily in 
the battlefield. At the same time, they need him. There is no 
Assad regime without Assad.
    Mr. Perry. Right.
    Mr. Singh. So there is a codependency. And exactly what is 
the dynamic in that relationship, I would be hard-pressed to 
say.
    Mr. Perry. But I would think, at a minimum, we are hard-
pressed to put a whole lot or really any degree of trust in 
Russia in some kind of bilateral operations or negotiations. I 
mean we are forced to it because they are at the table because 
the last administration essentially allowed them at the table 
or they forced themselves to the table. But we can't trust them 
in anything we are doing. Would that be a fair assessment?
    Mr. Singh. I think that our history of negotiations so far 
have shown that, as Mr. Lister mentioned, they have a pretty 
poor track record when it comes to enforcing ceasefires and 
getting Assad to do what he needs to do.
    Mr. Perry. Just looking further, what would their objective 
be in Libya and Egypt? Is this the beginning of further 
influence in the region?
    Mr. Singh. Well I think, broadly, Russia is trying to 
reassert itself as a global power. It is trying to reestablish 
its influence in regions like the Middle East but not only the 
Middle East. And look, having a presence there on NATO's 
southern flank, you know they obviously have quite a presence 
on NATO's eastern flank, gives them a bit of influence and 
leverage over especially those southern NATO countries.
    So I think that there are a lot of different things in 
play.
    Mr. Perry. Yes, so I think we need to be wary of that and 
aware of that.
    Regarding future negotiations and stability, and your 
assertion that it is not going to come anytime soon, and I 
would agree with you, are there decision points for Russia? And 
if there are, and I imagine there are, do you have any 
inclination to what they would be?
    And finally, Mr. Chairman, with your indulgence, would you 
just acknowledge that it was protocol to allow the Russians to 
know that our missiles indeed were inbound. It was not 
collaboration or collusion, it is protocol.
    Mr. Singh. It is protocol and I think it is prudence, as 
well, frankly.
    Mr. Perry. Okay. And the previous question?
    Mr. Singh. The decision points for Russia.
    Mr. Perry. Yes.
    Mr. Singh. Russia is obviously most active in that western 
sort of quadrant of the conflict, as well as a bit in the 
southern quadrant. And it seems right now they are trying to 
establish control around Idlib.
    And so I think that seems to be the focus but I think 
whether or not that remains the focus, how that goes will 
depend also in part on what happens in the rest of the country. 
I think, for example, a successful operation to liberate Raqqa 
changes the sort of facts on the ground because it really, 
especially if we are starting to empower local actors there, it 
eliminates the possibility that Assad can somehow regain 
control of the country and perhaps changes the dynamics for 
Russia, for Assad, for Iran.
    Chairman Royce. Thank you. We go to Brad Schneider, Brad 
Schneider of Illinois.
    Mr. Schneider. Thank you, Mr. Chairman and thank you, 
again, for calling this hearing. To the witnesses, your 
testimony, your written testimony in particular, was 
extraordinarily helpful.
    I want to associate myself with my colleagues about the 
need for a strategy, the need for the administration to be here 
speaking to us. But also I want to, as maybe starting a trend, 
set the record straight because it was indicated that it is 
obstruction that is slowing down having people in place. And I 
just want to point out that there have been very few 
nominations made within the State Department, among other 
departments.
    There are two upcoming nomination hearings. The Senate is 
moving quickly. We need the senior officials to be nominated 
and in place to make sure that we implement the strategy we 
need to have in place.
    Moving to questions, Mr. Lister, you indicated in your 
testimony that Assad cannot put Syria back together again. Is 
that a statement about Assad or is it more a statement about 
Syria in general?
    Mr. Lister. I take it to mean the latter part of your 
question is implying whether partition is possible?
    Mr. Schneider. No, the question is can Syria be put 
together again or is it something that we are trying to do the 
impossible?
    Mr. Lister. Fundamentally speaking, a very significant 
proportion of Syria's population have seen the wrath of the 
Assad regime and the methods he uses--so the Assad regime's 
chief motto is Assad or we burn the country. Assad frequently 
says he is cleansing his country of the impure.
    With Assad still in place and with his foreign intelligence 
apparatus, you have every single piece of information about 
anyone who could potentially be opposed to his regime. While he 
stays in power, six and a half million Syrians will never go 
back.
    Mr. Schneider. And I agree that Assad can't. But is it 
possible to put Syria back together at this point?
    Mr. Lister. I think so, yes, in the long-term. The key 
thing for everyone to bear in mind is that the only thing, in 
my experience, that unites the opposition and the regime is an 
opposition to Syria falling apart. Both of them oppose 
partition 100 percent.
    Mr. Schneider. Good.
    Mr. Singh, turning to you. You talked about Syria being a 
conflict spread over four zones. And as I look at it and others 
were talking about it, it is maybe more. There are more facets 
to this challenge.
    But I wonder is it one conflict over four zones or it is 
four conflicts with intersections, or using Mr. Lister's term, 
interlinked conflicts?
    Mr. Singh. Congressman, I mean I guess you would apply 
almost either terminology to it. I think the point, from my 
point of view, is that you can't treat Syria as one problem, in 
a sense. In fact, you have distinct but, perhaps, overlapping 
problems. So for example, we have the problem that has erupted 
in recent days of the Turks and the Kurds in their tensions to 
one another and clashes with one another now. We have the 
problem of Iran and Hezbollah trying to establish a presence 
along the Golan Heights. We have the problem, potentially, of, 
if there is renewed fighting in the south, refugees flowing 
into Jordan and the Jordanians feeling as though they have to 
do something perhaps to push ISIS back from their own borders.
    And then we also have the sort of issue that really we are 
focused on in this hearing of western Syria and the plight of 
civilians who are caught between the Assad regime and its 
backers and the opposition which is, as I said, increasingly 
jihadist dominated in that area.
    So these are all sort of parts of the Syrian conflict but I 
think that to make good policy, we may need to look at them not 
separately, not totally distinctly, but as sort of discrete 
problems, if you know what I mean.
    Mr. Schneider. Dr. Rand, I don't know if you have comments 
to add to that.
    Ms. Rand. Concurring.
    Mr. Schneider. Okay. As I try to understand what is 
happening and, again, thank you for sharing your insights, it 
seems that we need to have certainly a multi-faceted strategy, 
if not overlaying strategies that are distinct.
    On the one level, we have this humanitarian crisis that we 
have to deal with with, not just the internally displaced but 
the pressure it is putting on the region.
    Mr. Singh, as you touched on, we have the regional issues 
in what is happening at the north along the Turkish borders is 
distinct from what is happening on the highway between Damascus 
and Aleppo, distinct from what is happening near the Golan. And 
having that tragedy on the regional and then the global, we are 
running out of time, but the issue of the prospect of a failed 
state in Iraq being a haven for terrorist groups and, Mr. 
Lister, thank you for emphasizing al-Qaeda because it is not 
just ISIS. We have to have a strategy with all of those.
    So I guess I am going to finish with a statement for a 
question because I am out of time. But it is imperative that we 
have the administration here sharing with us, so that Congress 
can exercise its responsibility to understand and ultimately 
make the decision of what role the United States should be 
playing in these conflicts.
    So with that, I yield back. Thank you very much.
    Chairman Royce. Thank you for those questions.
    We will now go to Chairman McCaul from Texas.
    Mr. McCaul. All right, thank you, Chairman.
    My first question is to Mr. Lister and maybe for the panel. 
I have been briefed on this Democratic Federation of Northern 
Syria that operates, obviously, in the northern part of the 
country. On December 29th, the 165 leaders, Kurdish, Christian, 
Yazidi, and Arab populations came together to form a counsel 
and declare the creation of a government known as the 
Democratic Federation of Northern Syria. And it was sort of 
intriguing to me. I know some of our Special Forces may be 
working with them to defeat ISIS but what intrigued me about 
this group was that, at some point, if and when Assad falls, we 
are going to have to have some model of governance, some 
template for the country. And I think that is something that we 
have seen historically in the past we have made mistakes on, 
when a dictator falls and there is no governance, then the 
terrorists take over.
    And so my question is can you tell me more about this 
Federation and the prospects of it and other groups like it 
becoming sort of a model governance?
    Mr. Lister. Sure. Well, the formation you speak of is 
essentially a result of the Kurdish YPG's policy in 
northeastern Syria, which is to establish a semi-autonomous 
region of the country either with or without the tacit 
acceptance of the United States and with or without the tacit 
acceptance of the Assad regime, both of whom it retains contact 
with.
    You know many of the underpinning philosophies underpinning 
it are good and laudable. The idea of freedom of 
representation, in theory, the theory of equal opportunities 
for the sexes is all good, and there are many, many more. There 
are problems with it, though, within this Federation territory, 
it has become all the more common now for any portions of 
opposition or any other Kurdish parties that aren't the YPG 
have had their offices raided, burnt down, arrested. It is now 
illegal, according to that Federation for any of the leaders of 
those other Kurdish parties to even enter the territory.
    So it is potentially a good stabilizing measure in the 
interim period but it isn't part of a solution I can see other 
Syrians and the rest of the country being part of.
    Mr. McCaul. Is it something the United States should be 
supporting?
    Mr. Lister. In the interim, perhaps, yes, I mean because it 
works for now. It has stabilized northeastern Syria. It has 
resulted in the defeat of ISIS in those areas. But we need to 
be very, very aware of how poisonous, and I use that word, how 
poisonous the YPG's political philosophy is perceived by 
Syrians on both sides of the opposition-regime conflict. There 
are significant fears.
    I will end just by saying I was part of a significant Track 
II process for 3 years, which involved almost a thousand 
Syrians from across all sides of the conflict, highly 
influential people in their own regard. The only actor not 
involved in that process was the PYD, the political wing of the 
YPG. And the only reason for that is nearly every single Syrian 
involved in that process said they would boycott the process if 
the PYD was involved.
    It is just worth us remembering that using that as a model 
for the rest of Syria will not work, whilst it may work in the 
northeast. But it is not translatable for the rest of the 
country.
    Mr. McCaul. Well, following on the YPG, on Tuesday, Turkey 
launched an airstrike against groups, Kurds, including the YPG 
in Syria. We have been working with them to defeat ISIS. I know 
there were communications to Turkey not to do this. The 
President is meeting with President Erdogan next month.
    As a member of NATO, how do you propose that the United 
States balance this issue?
    Mr. Lister. Well, I would refer you to my earlier testimony 
and to my prepared remarks. I refer to the fact that Turkey has 
many faults but also we have many faults with this situation.
    We have pretended that the YPG isn't part of the PKK, which 
is a designated terrorist organization in this country. The PKK 
is also the primary national security threat for Turkey and it 
has been for 30 or 40 years.
    So there are things we do need to do to build confidence 
back up with the Turks and the primary policy recommendation I 
would have there in the immediate term is to try to encourage 
or force Turkey to reconsider a ceasefire with the PKK inside 
Turkey, which would then have the positive knock-on effect of 
de-intensifying the hostilities between Turkey and the YPG.
    For me, that is the only way around it.
    Mr. McCaul. I assume the other witnesses agree with this 
assessment?
    Ms. Rand. Yes, this is exactly right. I would just add that 
the President and the new administration seem to be trying to 
warm relationships with Turkey. There were a number of phone 
calls, including after the referendum 10 days ago, 
congratulating President Erdogan. This is a new warm 
relationship that has to be translated into tough talk and 
negotiations on these types of issues to promise to work on the 
YPG issue in exchange for restraint and not to target people 
that our Special Forces are working with and partnering with.
    Mr. McCaul. Thank you. I see my time has expired.
    Chairman Royce. Thank you for those questions.
    We will now go to Mr. Espaillat from New York.
    Mr. Espaillat. Thank you, Mr. Chairman, Ranking Member 
Engel. And esteemed witnesses, thank you for your excellent and 
enlightening testimony.
    I don't mean to pile on but, however, thus far, so far in 
Congress and with full control of both the Senate, the House, 
and the White House, it is perplexing that we have not heard 
from a State Department official who might really play a 
constructive role in answering some of the questions that we 
may have.
    Just yesterday we heard from Secretary of State Tillerson 
and General Mattis on the North Korea issue. And we have not 
used military force there, yet. So I think it is imperative 
that we hear from the administration on their plan, their 
strategic long-term plan to address this humanitarian crisis in 
Syria. Close to half a million civilians have died or exactly 
480,000, and 14 million people have been displaced, and maybe 
50 or more percent of the country's infrastructure has been 
destroyed.
    So this is truly a humanitarian crisis and beyond the 
attack on the airfield, we have not really heard from the 
President or his administration on the long-term strategic plan 
to deal with this particular humanitarian crisis. And we saw 
how while he warned the Russians of the planned military 
action, he ordered the launch of 59 Tomahawks on Shayrat 
Airfield in Syria. And he very emotionally and appropriately 
stated that Assad choked out the lives of helpless, men, women, 
and children. It was a slow and brutal death for many of them.
    But less than 24 hours after the attack, the Syrian 
Government and their Russian allies were able to continue to 
fly missions out of the airfield. When will they fly another 
mission with chemical weapons? That is the question that we 
must all ask ourselves. In fact, there are recent allegations 
that even after the airfield attack, the regime has used 
chlorine gas against civilians.
    And so we want to know, I want to ask is there any 
evidence? Have you heard of any evidence of this being true 
that they have, in fact, after the sarin attack, they have used 
other chemical weapons on the Syrian people?
    Mr. Lister. Briefly, yes, or as much evidence as we can 
glean without being there ourselves. Doctors on the ground have 
treated chlorine-like symptoms, difficulty breathing, tearing 
from the eyes in, as far as I am aware, at least three 
different locations since our cruise missile strikes, including 
one of the times which was literally the day after our cruise 
missile strike. And those attacks are taking place just outside 
Damascus and elsewhere in the north of the country.
    Mr. Espaillat. So the bombing of the airfield has not 
deterred the Assad regime from continuing in its bad ways. And 
so we must hear from the administration on the strategic long-
term plan in the region. The President, in his first 100 days 
has issued executive orders to a 4-month halt on allowing 
refugees in to the United States. We just heard in the past 
days how his assistant and First Daughter Ivanka contradicted 
that particular policy, saying that allowing Syrian refugees 
into the United States has to be part of the discussion. Maybe 
we should allow that statement into the record, Mr. Chairman, 
but we must continue to highlight America's long-standing 
tradition to offer humanitarian aid and allow refugees from 
troubled parts of the world to enter America, where they will 
protected and shielded from bodily harm. This is an important 
component of who we are as a nation and we must continue to 
look in that direction.
    Trump is proposing cuts on the State Department and we 
heard how General Mattis has stated that if we cut diplomacy, 
we just buy additional bullets. And so we are in the crossroad 
where we have not heard from the administration with proposing 
cuts on the State Department, the Assad regime continues to 
violate human rights. We are not clear on where we are going 
and yet, we are not speaking to each other. And we speak to 
each other about North Korea, as we should and yet, we have not 
used physical force there.
    So we must continue to support refugees coming in. We have 
a good vetting system to ensure that they are not here to harm 
our nation. And whether they are children being killed in El 
Salvador, Guatemala, Honduras, or Syria, they are children that 
we should help across the world.
    And I am asking President Trump to reverse his course on 
the executive order and to come to Congress with a long-term 
foreign policy strategy on Syria.
    Thank you, Mr. Chairman.
    Mr. Yoho [presiding]. Thank you, sir. It is now my turn and 
so I am going to ask you guys, and I appreciate your patience 
being here. I want to go back to the subject of this hearing, 
Syria After the Missile Strikes: Policy Options.
    I was torn when President Trump ordered those Tomahawk 
missiles in there because I was a strong opponent of President 
Obama going in there when they were going to do the no-fly 
zones because was saw what happens with no-fly zones in Libya. 
It leads to a failed state. There is nobody to take over and 
that was our concern back then. And this was a limited strike.
    And I want to go back to some of the stuff that you said. 
Mr. Lister, you said you noted that the mode of death--whether 
it is bombs, bullets, I threw in beheading, or chemicals--it is 
still death but the chemical weapons have been deemed an 
unacceptable form of warfare. And if we go back to the Chemical 
Weapons Convention, it comprehensibly prohibits the use, the 
development, the production, stockpiling, and transfer of 
chemical weapons. Any chemical used for warfare is considered a 
chemical weapon by the Convention. And then we have the 
chlorine barrel bombs that Assad has been using. And we have 
written bills to prevent that. We can't get the traction 
because everybody says chlorine is not considered a use but 
within the chemical weapons treaty it says the use of any toxic 
chemical as a weapon, when used to produce fatalities solely or 
majoritively through its toxic action is in and of itself 
forbidden by the treaty.
    So my question to you is: We have pretty much every country 
in the world signed on to the CWC and there are four of them 
that haven't. So the consensus is, with all the countries, the 
192 that have agreed to this, is that chemical weapons should 
not be used. So we are in agreement there.
    Is there an enforcement mechanism or is it just an 
agreement we are not going to use them? And if somebody crosses 
that red line and uses them, is there an international response 
written down anywhere and, if not, would you recommend there 
should be and it should be an international coalition of all 
nations?
    What are your thoughts, Mr. Singh?
    Mr. Singh. Well, Congressman, thanks for the question. I 
confess I am not an expert in the CWC. So I am not sure I have 
the answer to your questions.
    But I think if the treaty is going to mean anything and it 
is a lesson also for other nonproliferation treaties, which we 
put a lot of emphasis on, there have to be sanctions. There 
have to be penalties for those who violate them and it can't be 
just American penalties and American sanctions. It needs to be 
international.
    Mr. Yoho. And that is what I want to come out of this so 
that it gives clarity for a nation because I don't want America 
to have to do this alone but after 5 years of slaughter over 
there and pushing 500,000 people and, as Ms. Titus brought up, 
you know this administration has done nothing. Well, we can 
blame a lot of administrations for not doing anything. And we 
need to have the clarification of if this does happen and we 
have signed on to these agreements, somebody needs to back them 
up.
    Mr. Lister, do you have any thoughts on that?
    Mr. Lister. I am also not an expert on the treaty either or 
the Convention and I would echo what Mr. Singh has said. It is 
our responsibility as an international community to enforce 
conventions like this.
    Mr. Yoho. All right, and I know you guys aren't the experts 
or want to talk about the policy side of that but you are 
experts in your fields. So I am asking you to give us the 
information that you would draft as far as a wording that we 
could go to the U.N. and say we want this or go to our State 
Department and say we want this wording put into the 
international community that if you cross this red line, not 
just America, but all the members that have signed up to this 
are coming after you.
    Dr. Rand? And Mr. Lister you said--you looked like you had 
something else to add.
    Mr. Lister. I will just finish. I think the responsibility 
to protect is a useful mechanism here. If chemical weapons are 
proven to be being used against civilian populations 
repeatedly, that may give us one opportunity under some kind of 
a U.N. mandate to at least push for some kind of response and 
consequences for it.
    Yes, that is what I would offer.
    Mr. Yoho. Dr. Rand?
    Ms. Rand. I would agree with the RTP, the responsibility to 
protect method of advancing this but I would also add that you 
know last week at the U.N. there was a resolution, or 2 weeks 
ago right after the missile strikes, to condemn it and to 
investigate it and Russia vetoed it, in fact, on the one 
paragraph on the information about they didn't like the way it 
was worded or something. But I think the main diplomatic task 
ahead is to go back on this particular strike and ensure that 
there is an investigation because that is part of the norm 
against CW is the international community goes in, and 
investigates, and holds accountable individuals, including by 
name, by the way. The PCW has been very good at finding the 
perpetrators in the past 2 years.
    Mr. Yoho. Right.
    Ms. Rand. It has a published list of names.
    Mr. Yoho. And my goal is that we have an enforcement 
mechanism that has teeth behind it because that is the only way 
I could justify what President Trump did is the slaughter that 
has been going on for over 5 years, that it has to be brought 
to an end. And if we just sit by as a world, we are all guilty 
of watching this happen. And so I am glad he stepped in but 
before we go any further, we need to have clarification.
    And my time is out.
    And we will go now to Mr. Brad Sherman from California.
    Mr. Sherman. Thank you.
    We have three separate goals in Syria and there is a 
tendency to mash them together. We have to keep them separate, 
evaluating every policy as to whether it helps at least one of 
those goals without setting back one of the others. And we 
shouldn't attack a proposal just because it does nothing to 
achieve two of our goals if it, in fact, helps us achieve one 
of the three goals.
    Our first goal is to protect the Syrian people and we 
would, eventually, like to see good governance in Syria. Our 
second goal is to destroy ISIS. And our third goal is to 
preserve the Chemical Weapons Convention that bans the use of 
poison gas.
    And there has been discussion here about how the mode of 
death doesn't matter. You are just as dead if you are hit by a 
bullet or a bomb as if you are hit with sarin. But the fact is 
that we live in a world in which mankind at least achieved the 
Chemical Weapons Convention.
    One could write an account or history where chemical 
weapons were invented before gunpowder and in that account or 
history, chemical weapons are allowed and explosives are not 
but that is not the way history unfolded. We have a convention 
against the use of chemical weapons that has saved countless 
millions of lives and it is worth standing up for that 
convention, even if we realize that Assad has killed half a 
million people, or the war that he created has killed half a 
million people, and only a very, very small percentage of those 
died from chemical weapons.
    Now not only do we have those three goals, the Syrian 
people, ISIS, and the Chemical Weapons Convention, they are not 
equally important goals, but we have a couple of caveats. And 
that is we want to do that all without excessive U.S. 
casualties and without a war with Russia. We don't want another 
Iraq War. We don't want another Cuban Missile Crisis.
    Now, one of our colleagues said that he thought that there 
was a moral equivalence between Assad and other authoritarian 
regimes in the Middle East. I would say Mubarak did not kill 
hundreds of thousands of people. In fact, he allowed himself to 
be, or was allowed to leave power, rather than killing hundreds 
of thousands.
    Not every authoritarian regime in the Middle East is 
responsible for aiding the killing of hundreds of Americans, as 
Mr. Lister pointed out, the Assad regime is.
    Not every Middle East authoritarian regime has tried to 
develop nuclear weapons the way Syria did until they were 
bombed in 2007, and no doubt they paid North Korea for the 
material and the technology. So, they proliferated in that 
direction as well. That is money in the hands of North Korea.
    And there are 500,000 dead Syrians. That does not equate to 
Erdogan. And I have been one of the harshest critics of Erdogan 
on this committee.
    The Obama administration forced Assad to give up 2,600 
pounds of chemical weapons. That was a tremendous 
accomplishment. And our hope is that the action taken by 
President Trump will prevent Assad from using whatever he has 
left. We will have to see.
    There is discussion of chlorine versus other chemical 
agents. It is my understanding that the Chemical Weapons 
Convention would prohibit Syria from even possessing sarin and 
other chemical agents. They are allowed to possess chlorine. 
You can't have a modern society without chlorine and 
chlorinated water but it prohibits the use of chlorine as a 
weapon.
    And of course when chlorine is used, you can't always be 
sure it was the Assad regime. Chlorine is a much more available 
item and the rebels, or the terrorists, or others might have 
it.
    The question I have requires an understanding of Russian 
politics. So if I don't see a volunteer, maybe you could 
comment for the record. And that is, there is, among other 
things in the Middle East, a civil war between Shiites and 
Sunnis. The Russians have adopted the Shiites. Their own Muslim 
population is overwhelmingly Sunni. How does Putin, the man who 
at least asserts that his hold on power is dependent upon the 
consent of the government, side with the Shiites in this effort 
without an incredible blowback? We all have ethnic and 
religious communities in our districts and I doubt that we 
would fail to take into account their historical view in 
looking at international affairs.
    Does anybody have a comment on how and why Putin can side 
with the Shiites when he has tens of millions of Sunnis?
    Mr. Lister. Very briefly, just academically, I would push 
back on the idea that Syria, at least within the frame of 
reference of Syria, that it is all just about Shiite versus 
Sunni. There are many Sunnis who have remained loyal to the 
Assad regime, just as many have turned to the opposition. And 
Russia has actually tried to frame it that way.
    Mr. Sherman. But Hezbollah and Iran are there supporting 
Assad out of a Shiite----
    Mr. Lister. Exactly but Russia has tried to frame its 
policy in Syria domestically as not being protecting the Shia.
    It is also worth remembering one thing that is going on 
right now which is having very little media coverage, in Aleppo 
city, having captured it, the Russian Government is now trying 
very hard to prevent Iran and the Assad regime from populating 
eastern Aleppo, which was previously under the opposition 
control. It is trying to prevent them from populating that area 
with Shia. And it is insisting that Sunnis, including from 
opposition areas, should be given the opportunity to come back 
to eastern Aleppo.
    And so I would remind you that it is a little more 
complicated, domestically and also on Syrian than the binary--
--
    Mr. Kinzinger [presiding]. The gentleman's time has 
expired. I thank the gentleman.
    The Chair recognizes the Chair for 5 minutes.
    I just want to dispel very quickly--there is a lot of talk 
about nonintervention in Syria and using Libya as the example. 
I think it is really important to point out that Libya has 
massive challenges. Part of that was a failure in follow-up 
after regime change, I believe.
    But secondly, if you compare the case of intervention in 
Libya versus the case of nonintervention in Syria, Libya, with 
all its challenges, is far better off than not intervened--in 
Syria.
    I remember back in 2013 I was one of the few Republicans 
outspoken about the need to enforce the red line in Syria. And 
I heard from people all over, a lot in my own party, some 
members on this committee, that said if we intervene and we 
strike Syria, we will begin World War III, and another major 
intervention in Syria, in the Middle East, World War III will 
commence and everybody will be gone.
    I would like to point out that also people said that if we 
intervened, it will get way worse in Syria. But when we didn't 
intervene, it actually got way worse than we ever could have 
imagined, which is where we are at today.
    So as we look at going forward and we imagine all the 
terrible possibilities and probably most of them are terrible, 
I would like to remind people that I think it can get even 
worse than it is right now, which is almost unimaginable.
    As Mr. Lister mentioned in his statement, a very important 
thing happened after the strike on the airbase in Syria, which 
is the people who sat around said what are the Russians going 
to do, they got their question answered, which is absolutely 
nothing. They do not have the ability to respond, to react. 
Russia is not the former Soviet Union. It is a military where 
half of its planes can't even fly and it is very underfunded. 
So I think that is important to note, too, as we look at what 
we are going to do going forward.
    Mr. Lister, let me ask a question. What is Bashar al-
Assad's ultimate fear? What is the one thing that, if we push 
on that button, would drive President Assad, Dictator Assad, to 
the table to negotiate?
    Mr. Lister. My theory would be his ultimate fear is America 
gets really serious about Syria and not just about ISIS.
    The only substantive evidence I can recall for that is back 
in August 2013, after the chemical weapons attack, in the brief 
period of time where it looked like the United States may 
conduct limited punitive strikes, I knew Syrians who were in 
Damascus at the time on the government side who said that 
nearly half of the Syrian Parliament packed up their homes and 
fled to Lebanon because they feared that limited, very limited 
American military action was going to set forth a chain of 
events that would have completely caused chaos within the 
regime, not the state, but the regime's inner circles.
    So the biggest fear for Assad isn't terrorism. In fact, he 
has used terrorism for his own means, not just during this 
crisis but before, his biggest fear is that we get serious 
about solving Syria. And he has enjoyed the last 6 years 
because we haven't.
    Mr. Kinzinger. So would you say that ultimately he fears 
his own life in that process? So if he would lose power in the 
regime, or his life, or whatever, that is what can be used as a 
trigger point to drive to a negotiated solution because short 
of that, short of any fear of losing power, he has no incentive 
whatsoever to negotiate an end to this war on anything but his 
own terms.
    So I guess my point is, as the administration goes forward, 
they ought to look at using further air strikes against regime 
targets as a method to drive a negotiated solution here, as the 
diplomatic instrument of power against an adversary can only be 
effective when backed by the military instrument of power. We 
see that in North Korea. We see that here.
    Let me ask you another question. Can Bashar al-Assad ever 
gain ultimate control of all of Syria again? I mean short of 
the entire world backing his regime, can he ever gain control 
of Syria?
    Mr. Lister. You can't discount anything but if he is going 
to militarily conquer the rest of his country, it is going to 
take a very, very, very long time, and it is going to cause a 
huge further exodus of civilians and many, many more deaths, 
and it could take 10, 20, 30 years to do so.
    So, the real answer is, effectively, no if the answer is 
that he is then putting the country back together again. You 
know, it is essentially that.
    Mr. Kinzinger. So without a strategy against Assad, be it 
negotiated or otherwise, you see part of regime controlled 
territory and you see a large part of the country, which is 
Afghanistan pre-9/11, basically, with some terrorist groups, 
some opposition groups running around.
    So what would Assad staying in power, very briefly because 
my time is up, what does that do to the al-Qaeda affiliate in 
Syria?
    Mr. Lister. Okay, as fast as possible. Al-Qaeda has spent 
the last 6 years embedding itself in an opposition narrative in 
Syria. It has devoted all of its resources to fighting Assad, 
not creating an Islamic State, not fighting a transnational 
jihad. And for that reason only, the continued existence of 
Assad in Damascus and his continued brutality against his 
people, every single day emboldens al-Qaeda's narrative in the 
eyes of other Syrians who don't buy into a transnational jihad. 
And this is the fear: Every single day more and more people 
think, huh, maybe this group has got it right. They have always 
told us the international community will never come to our aid. 
So because they are right, because they are there, because they 
are powerful on the battlefield, maybe these are the guys that 
we should be joining. And that is the state where we are today.
    Mr. Kinzinger. Thank you. My time has expired.
    I think it is Mr. Cicilline from Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman. And thank you to 
the chairman and ranking member for calling this hearing. Thank 
you to our witnesses.
    It has been 3 weeks since President Trump launched a 
missile attack against the Assad regime and we are no closer to 
achieving a solution to this crisis. The Trump administration 
has not formulated any coherent policy to address ISIS or the 
ongoing atrocities being committed against the Syrian people by 
Bashar al-Assad.
    In actuality, the inconsistency and confusion displayed by 
members of the Trump administration has emboldened Assad and 
his patron, Vladimir Putin. A monstrous chemical weapons attack 
deployed against innocent civilians, including women and 
children, came just days after Secretary of State Tillerson 
signaled to Assad and Putin that the United States was willing 
to accept Assad's continued role, which represented a stark 
turnaround from previous American policy.
    And in the meantime, President Trump continues to push for 
his cruel and unnecessary ban on Syrian refugees, as well as 
draconian cuts to our foreign affairs budget. Each of these 
actions will only worsen the suffering of the Syrian people and 
that is why I, along with Congressman Beyer and Congresswoman 
Jayapal, are leading a letter to President Trump asking him to 
reverse his executive order and support funding for 
humanitarian assistance.
    And finally, I am extremely troubled by the 
administration's seeming lack of understanding of the 
constitutionally-mandated congressional oversight of American 
military action. If the President intends to escalate our 
military involvement further, as he has indicated he will 
consider, then he has a responsibility to send a plan to 
Congress and seek authorization for any further action.
    My questions are really--I have two. One is the 
humanitarian assistance budget is expected to decimated if 
President Trump's budget is adopted. Would you speak to how 
these proposed cuts would affect the United States' ability to 
work toward stability in Syria and in neighboring countries 
that are taking on the enormous burden of housing the large 
majority of Syrian refugees, particularly our ally Jordan?
    Ms. Rand. Sure. Thank you, Congressman, for that important 
set of questions.
    First on the refugee ban, it is interesting that the media 
actually hasn't covered the foreign policy disadvantages of the 
refugee ban because you know Syria's neighbors are taking in 
four million, five million Syrian refugees. The generosity of 
the Turks, the Jordanians, the Lebanese, and other neighbors is 
incredible.
    And so you know last year in 2016, the U.S. took in 12,000 
Syrian refugees. I mean that is nothing compared to these 
smaller and less well-off countries. So we are trying to 
convince our allies surrounding Syria to be generous toward 
these refugees, to continue to give them housing, to continue 
to give them education, to continue to work with the U.N. and 
other international organizations. And that is a really 
important signal that hasn't been covered. So I just wanted to 
mention that because we haven't discussed that so far today.
    Specifically, on the humanitarian budget, it is unclear 
because there are still reports of what the cuts will be but 
the cuts to humanitarian assistance, international development 
account, the IDA account, cuts to the food aid budget will all 
significantly affect Syria and its refugees, also the IDPs who 
have stayed within Syria.
    And then the cuts to ESF, to the economic support funds to 
the Jordanian Government are very concerning. I mean it is just 
confusing as to why you would cut ESF to one of your closest 
partners and allies in the region that is both being generous 
to the Syrian refugees but trying to help you in some of the 
counterterrorism operations that we have discussed today.
    Mr. Cicilline. Thank you.
    Finally, I would just ask any of the panelists, you know we 
always have discussions about a military solution to this 
conflict. And I think in the absence of American boots on the 
ground, which I strongly oppose, I wonder whether there is a 
military solution and what that would look like. And if not, if 
it is exclusively a diplomatic solution, what is the strategy 
or your recommendations as to how we get to that?
    Mr. Singh?
    Mr. Singh. Well, thank you, Congressman. I personally say 
that, as in so many of these situations, there is no 
exclusively military solution. There is no exclusively 
diplomatic solution. Ultimately, to the extent our policies are 
successful, they are successful when we combine all of our 
tools--diplomatic, military, aid, intelligence, and so forth--
and when we do it in conjunction with allies, with a coalition 
of like-minded countries. And I think that is what is going to 
be required here.
    I do think that, frankly, the April 7th strike is useful in 
building the credibility of American threats of force. I, for 
one, would say that it may be that if we already have some 
American boots on the ground, it may be that there is a role 
for some more but I don't think it should be the United States 
in front sort of taking on the heaviest military roles. That 
should be up to our local partners.
    But I think it is going to be force backed by diplomacy, 
diplomacy backed by force, which is going to be part of the 
answer here.
    Mr. Cicilline. Anyone else?
    Mr. Lister. I agree.
    Mr. Cicilline. Great. Thank you.
    I yield back, Mr. Chairman.
    Mr. Kinzinger. The gentleman yields back. The Chair 
recognizes the gentlelady from Missouri, Ms. Wagner, for 5 
minutes.
    Ms. Wagner. Thank you, Mr. Chairman. This is an important 
hearing. It is high time that the United States grapple 
strategically with how to end the Syrian conflict.
    It is patently clear that there can be no resolution with 
Assad in power, especially as he continues to prioritize a war 
against moderate groups seeking democracy over a war against 
ISIS. His slaughter of innocent civilians is barbaric and the 
United States cannot hope to defeat ISIS with Assad as the only 
alternative.
    Dr. Rand, the Southern Front has been effective in keeping 
extremist groups from expanding control in southern Syria. How 
can we, along with our allies in Israel and Jordan, further 
support the Southern Front and help them protect against Assad?
    Ms. Rand. Thanks, Congresswoman. This is an important 
issue. And actually because of the focus on Idlib and Aleppo in 
the past year or so, I think a lot of the attention has shifted 
away from the Southern Front. So I think it is important to 
raise it again.
    You know a year and a half ago the governance of the 
Southern Front provided kind of a model of the multiethnic, 
multisectarian type of governance. They issued a communique 
talking about inclusion and representations among the different 
sects. It seemed quite hopeful and seemed potentially a 
paradigm that could be transported for other parts of Syria.
    So the key here I think is two-fold. One is to support the 
continued moderation of the leadership of the Southern Front to 
make sure they continue to support different ethnic groups and 
you know there is some inclusion of al-Qaeda elements, I will 
let my colleague talk about it, but overall, they have been 
more moderate than some of the other oppositionists. But 
second, is just to support them in their counterterrorism needs 
against ISIS and other more extremists that might challenge 
their hegemony in this part of Syria.
    Ms. Wagner. Thank you, Dr. Rand.
    Mr. Lister, can you discuss coordination between Kurdish 
forces, such as the SDF, and YPG, and, frankly, and other 
moderate forces, and I will say local groups? In what ways 
could the U.S. help advance cooperation between the Kurdish and 
moderate forces across the country to ensure that areas freed 
from the Assad regime can, in fact, remain free of terrorism?
    Mr. Lister. Again, that is a very important question. I 
mean I think what I have tried to focus on in my remarks is to 
suggest that Syria can't be looked at as a whole. So what we 
have seen develop in the northeast with the Kurdish YPG and its 
various allies is one specific component of a much broader 
reality. What works in the northeast doesn't work in the south. 
We are not going to see a reflection of the Kurdish 
Confederation in the northeast suddenly appearing in southern 
Syria, with a predominately Sunni Arab population.
    So I think we should kind of take care of what we have 
helped to develop in the northeast but we also need to also be 
aware of the negative knock-on effects of some of these other 
actors' actions.
    And so I genuinely am concerned that if we pursue what I 
think we will pursue, which is a YPG-SDF led offensive on 
Raqqa, they will very seriously consider whether it takes 1 
month or 12 months, some kind of power sharing agreement with 
the Assad regime.
    Ms. Wagner. Power sharing.
    Mr. Lister. Now that kind--it has already happened. As I 
said in my opening remarks, in northern Aleppo they have handed 
territory over to the Assad regime. Now, if that happens in 
Raqqa, that is a jihadist's dream. It fulfills everything they 
have said for 6 years, that not only will the West not help 
protect your civilians but, eventually, they will come in and 
do their selfish thing, which is fight terrorism and then, 
eventually, they will give it over to the dictator again. So, 
we must be very, very careful of preventing a scenario like 
that from coming true.
    And comments from senior military officials here that we 
have no control over the decisions of our local partners, 
frankly, is a cop-out.
    Ms. Wagner. It is a cop-out. Thank you for your testimony.
    Mr. Singh, the Assad regime uses aerial bombardment and 
terrorizing weapons to strategically displace the civilian 
populations in opposition areas. In what ways have Sunni 
extremist forces and pro-Iranian militias taken advantage of 
Assad's attacks and displacement of civilians?
    Mr. Singh. Well, I think that is an important question, 
Congresswoman. And Mr. Lister referred to this before but I 
think there is no doubt that the brutalization of civilians, 
the brutalization of the populations is a boon to the extremist 
groups who, as Mr. Lister pointed out, play on this sort of 
anti-Assad narrative to boost their own fortunes. And we have 
seen exactly that occur because we have seen, I think, 
especially in western Syria, the extremist forces amongst the 
opposition gain in strength in recent months.
    As for the Iranians, the Iranians, I think, are complicit 
in Assad's actions. And so it is not necessarily right to talk 
about them gaining from them, they are actually part of those 
actions because it is the Iranians that I think have the 
greatest force on the ground backing Assad and I think we need 
to ascribe blame to them for much of what he does.
    Ms. Wagner. All right, thank you very much. Mr. Chairman, 
my time has run out.
    Mr. Garrett [presiding]. Thank you. The Chair would now 
recognize Mr. Suozzi from New York for 5 minutes.
    Mr. Suozzi. Thank you, Mr. Chairman. Let me start by 
stating the obvious, which is this is incredibly complicated. 
And I want to thank all of you for sharing your knowledge with 
us today.
    I am going to echo what all of my colleagues have said is 
that we really need to hear from the administration as to what 
their plan is to address this very complicated part of the 
world.
    There is an epic struggle going on in the world and, unlike 
the Cold War, where it was clear that it was the Soviets versus 
the Americans, this is much more complicated. It is stability 
versus instability. It is control versus chaos, as Tom Friedman 
said in his book. And we have gone from 35 million refugees in 
the world 10 years ago to 65 million refugees today and many of 
them are from Syria. And as the doctor pointed out in her 
testimony a few minutes ago, this is destabilizing other 
countries, as they try and deal with all these refugees in 
Jordan, and Lebanon, and other countries, in Turkey. And this 
region is so complicated by the fact there are so many parties 
involved with Assad--Iran and Russia--and then the rebel 
forces, America, ISIS, and al-Qaeda, the Turks don't like the 
Kurds. I mean there are so many pieces here and it is so 
complicated. But we have to choose in this world that is facing 
the struggle of stability versus instability where we are going 
to focus our resources and where we are going to--we have to 
make choices as to where we are going to pay attention and what 
we are going to do.
    And we have heard from I think it was Brad Sherman before 
and Congressman Kinzinger about some of these choices we have 
to make. And for me, you know let's put chemical weapons aside, 
which I think was a bipartisan, international agreement that we 
have to combat the best way that we can. But if the choice is 
between, for right now, what is right in front of us, you have 
to choose between fighting al-Qaeda and ISIS in Syria, or 
trying to protect the Syrian people and undoing Assad and 
forcing to the negotiating table, you have to choose between 
those two, what is the most important thing in front of the 
United States right now in our national interest? Is it to 
combat al-Qaeda and ISIS or is to stop Assad and force him to 
the negotiating table?
    Which is the most important thing before us right now? And 
you have to choose, each one of you. Mr. Singh, you go first.
    Mr. Singh. Congressman, I am going to disappoint because I 
think it is a false choice, frankly. I think if you go back to 
my initial statement, I think in fact we have now sort of 
several discrete conflicts which are going on within Syria that 
implicate our interests in the region and implicate the 
security of our allies. And we can't neglect one for the sake 
of the other. We have to address all of them.
    But it is a mistake to think, as Mr. Lister has said, that 
we can address all of them together in one neat package, sort 
of look at them as one problem to be solved. We have to address 
them in a distinct way.
    So in eastern Syria, there is no doubt that our priority 
has to be al-Qaeda and ISIS.
    Mr. Suozzi. Al-Qaeda and ISIS.
    Mr. Singh. And then not just defeating ISIS but thinking 
about what comes next because we don't want ISIS to return. But 
if----
    Mr. Suozzi. Well the focus now is on Raqqa.
    Mr. Singh. On Raqqa, right.
    In western Syria, though, absolutely, the continued 
brutality of the Assad regime, the expansion of Iranian power, 
the expansion of Hezbollah's power is a tremendous concern not 
just for us but for Israel, for Turkey, for our allies in the 
region.
    Mr. Suozzi. Now, I have learned somewhere that 85 percent 
of the population of Syria is in western Syria. Is that 
correct?
    Mr. Singh. Correct.
    Mr. Suozzi. Okay.
    Mr. Singh. That is correct.
    Mr. Lister. If I may, briefly. I mentioned in an earlier 
answer that we have found ourselves capable for about 2 years 
to combat ISIS primarily in isolation from the rest of the 
conflict. But we are now discovering that when we reach Raqqa, 
which is an Arab town, there are big knock-on effects of doing 
that with certain actors and we are finding, suddenly, the 
proliferation of knock-on effects along the northern Syrian 
border.
    And it is for that reason that I would agree with my 
colleague, Mr. Singh, that combating terrorism in Syria and 
protecting civilians are inextricably linked. Terrorist 
narratives, no matter what kind of terrorist you are, is linked 
to the fact that there is suffering, chaos, instability, and 
brutality in their world.
    Mr. Suozzi. So that is empowering them.
    Mr. Lister. And it is empowering them like nothing else 
that would be possible. And so I would suggest it is impossible 
for us to win against terrorism, whatever that might mean, 
without encompassing in that strategy, the protection of 
civilians, a de-intensification of the conflict, and 
challenging the Assad regime's freedom to use any means at his 
disposal to continue to kill people en masse.
    Mr. Suozzi. Doctor?
    Ms. Rand. Thank you. I would agree completely about an 
inextricability between these two options. And I would give as 
an example something that we have talked about extensively 
today that I think exemplifies this.
    After Raqqa is liberated, there will be a number of 
political governance and humanitarian questions before us, 
essentially, as those who have trained the militias that oust 
the ISIS terrorists and those include who will govern, whether 
they are Kurdish or Arab, and how much leverage we can push on 
them to not hand over to the regime. Those questions will 
affect how much we can protect the civilians in that liberated 
area of Syria. And those are things within our purview, within 
our power, within our leverage through our training and 
assisting of the partners that will do the liberation.
    Mr. Suozzi. I know my time has expired. I just want to make 
this one last point.
    By us going after ISIS and al-Qaeda, which is in our own 
self-interest, obviously, and national security, and so we must 
do it, we are aiding Assad, and Russia, and Iran in the process 
because they have the same enemy.
    Anyway, I am sorry.
    Mr. Garrett. Thank you. The gentleman's time has expired.
    The Chair will yield to chair.
    I want to be really clear in expressing my high esteem and 
regard for my honorable colleagues who have spoken earlier, but 
I have rarely seen such a mind-numbing display of 
misinformation and disinformation. So, I want to clear some 
things up.
    My colleague from Nevada previously mentioned over 500,000 
killed<greek-l>, quote, deg. ``by the Assad regime.'' In fact, 
the Syrian Observatory for Human Rights estimates, and that is 
the highest estimate of deaths in the conflict, that there have 
been roughly 500,000 casualties, that about a third of those 
have been to pro-regime forces, that is deaths.
    I presume, then, that Mr. Assad is not responsible for all 
500,000 casualties. Is that an accurate assessment, Ms. Rand--
Dr. Rand?
    Ms. Rand. The different human rights organizations have 
different estimates. They range between----
    Mr. Garrett. The question is, is President Assad 
responsible for all half a million deaths in Syria?
    Ms. Rand. At least 80 percent of those 500,000.
    Mr. Garrett. Okay, so a fact that a third of the deaths 
have been to pro-regime forces, you are intimating then that he 
killed about one-third of that third himself?
    Ms. Rand. No, there is also Russian--there are civilians 
that have not survived because of Russians.
    Mr. Garrett. Right, I would direct your attention to the 
Syrian Observatory for Human Rights and their statistics.
    My colleague from Nevada also made reference to a MOAB 
drop. That was actually about 2,300 miles away in Afghanistan, 
right? That wasn't actually in Syria, was it? Yes, so that 
would be some misinformation.
    And then she made reference to no cohesive foreign policy 
strategy that we have seen from this administration. Mr. Singh, 
the Trump administration was sworn in about January 20th of 
2017. Is that correct?
    Mr. Singh. That is correct.
    Mr. Garrett. Right and so the Syrian civil war really began 
in earnest, as did other events in the Arab Spring, roughly 
2010-2011 and was sort of coopted by first al-Qaeda, and then 
ISIS moved in to fill a vacuum in the east of the nation, 
probably about 6 or 7 years ago?
    Mr. Singh. Absolutely right.
    Mr. Garrett. And would you characterize the U.S. foreign 
policy, particularly through the State Department, from 2011 
forward as cohesive and clearly articulated?
    Mr. Singh. Absolutely not; we had no Syria strategy, I 
think.
    Mr. Garrett. And so if, in fact, U.S. policy is not 
cohesive and clearly articulated now, that is no departure from 
the previous 6-plus years?
    Mr. Singh. Well, it certainly isn't but I agree with you, 
Congressman, that it is still early going. And so my hope is 
that the Trump administration will be coming forward with a 
strategy.
    Mr. Garrett. And so too do I. I really do because I would 
agree that there is not a clearly articulated policy but that 
there hasn't been one that the previous administration had, by 
my rough mathematical estimates, about 24 times as much time to 
formulate one.
    So, we also have recent open source intelligence that 
relates to what has been our stated goal that is to attack and 
crush ISIS in Syria. And would it not be your agreement, Mr. 
Lister, that the number of air strikes and attacks directly on 
ISIS assets since January 20, 2107 have been stepped up and 
that the apparent success of those attacks is greater than 
heretofore?
    Mr. Lister. I can't speak personally to have seen 
statistics that suggest that but it wouldn't surprise me 
because we are entering, of course, the phase of an intensive 
operation for Raqqa.
    Mr. Garrett. Okay and there was also an intimation by one 
of my colleagues that it was inappropriate to have warned the 
Russians of an impending United States military strike on a 
facility where Russian forces were probably co-located.
    Would you agree with the idea that we shouldn't have let 
the Russians there were inbound explosive cruise missiles?
    Mr. Singh. Well, I would disagree that it was wrong to do 
that. I mean we do have deconfliction protocols and, to me, it 
was prudent to have warned the Russians in the way that we did.
    Mr. Garrett. Right. In fact, had we not warned the 
Russians, the Russians might have been even more incensed by 
the American action without any sort of heads up, if you will 
pardon the colloquialism.
    Now, were there regime chemical weapons attacks prior to 
the assumption of power of the Trump administration?
    Mr. Singh. Yes, there sure were.
    Mr. Garrett. Okay. And there were also chemical weapons 
attacks, to be fair, perpetrated by Jabhat al-Nusra/Jabhat 
Fateh al-Sham, obviously a renaming of al-Nusra, who was sort 
of infiltrated by al-Qaeda. They have used chlorine as well, we 
think, as has ISIS.
    Mr. Singh. So I am not sure I have the best information but 
I think I would draw a distinction between the types of 
chemical attacks, sarin attacks, and so forth, and the types of 
attacks you are talking about, Congressman.
    Mr. Garrett. Okay. Is it fair to say that there aren't a 
whole lot of clean hands as it goes around to atrocities 
committed in Syria? For example, you know setting aflame a 
Jordanian captured pilot wasn't perpetrated, to our knowledge, 
by the regime.
    Mr. Singh. There have been atrocities committed by several 
sides in this conflict.
    Mr. Garrett. Sure. In fact, I would argue everybody.
    Ms. Rand. Congressman, I would just add on that point there 
is no moral equivalency between the regime has done and what 
the other actors have done. I mean the regime is responsible 
for the vast amount of the destruction.
    Mr. Garrett. Okay. Well, I haven't asked this question yet 
but so let me make sure I understand this right.
    Okay, we have ISIS. We understand who they are. We have got 
Jabhat Fateh al-Sham, who is sort of a derivative of al-Nusra. 
It is fair to say that al-Nusra was sort of coopted by al-
Qaeda. Correct?
    In the north, regionally strong we have YPG and Kurds but 
they don't have any real desire, based on tribal affinity, to 
rule the nation, or the nation accept a Kurdish-led rule.
    And so if we are going to start establishing moral 
equivalencies, then would we rather ISIS, al-Qaeda, or the 
Assad regime to be in charge? Now, that is a rhetorical 
question.
    The bottom line I think that I am driving at is, before we 
engage in regime change activities, we ought to have a plan on 
who is going to fill the vacuum that we create because what 
five and a half million to six and a half million displaced 
people have in common is they didn't want to be displaced. But 
this nation led from behind, in our own words, and worked to 
create vacuums by encouraging uprising and revolts without any 
regard for who would fill the vacuum. And we saw Christians 
beheaded on the beaches in Libya, and we see half a million 
dead by the hands of many bloody actors in Syria, and we are 
partly responsible.
    We should not engage in regime change activities without 
contemplating who fills the vacuum that we create. Would you 
agree, Mr. Lister?
    Mr. Lister. Frankly speaking, it is not about regime 
change. It is about upholding international norms to ensure 
that governments don't commit repeated war crimes on a daily 
basis. And our objective, so far as I am concerned, is not 
regime change, we are not invading the country like we did in 
Iraq, it is to set up conditions that will allow a political 
process to be more meaningful and for all actors on all sides 
to treat it seriously.
    Mr. Garrett. So I couldn't agree more. And that sort of 
jives with what Secretary Tillerson had indicated to the 
Russians before the missile strike on the airfield. That is, we 
don't have to see Assad go but we have to see stability and 
peace in the region. That should be our goal.
    Mr. Lister. Well, I mean, the conclusion of the political 
process is up to Syrians. I think we ought to have, morally, a 
conclusion that Assad should go but it is not our choice to 
make that decision. But it is our responsibility, as a 
significant portion of the international community, to allow 
all Syrians to have that choice.
    Mr. Garrett. Right.
    Mr. Lister. And they haven't had it for 6 years.
    Mr. Garrett. Right, absolutely. Thank you. And I have gone 
way over.
    Mr. Engel. Will the gentleman yield?
    Mr. Garrett. I have gone way over so I would not yield.
    Mr. Engel. You would not yield?
    Mr. Garrett. I am out of time.
    Mr. Engel. You could still yield to me. You are in the 
chair.
    Mr. Garrett. I am not going to yield.
    Mr. Engel. You are not going to yield? Well, I am sorry 
that the bipartisanship that we have had here for so many 
years, that you don't follow the lead of the chairman and 
myself.
    Mr. Garrett. Well, I apologize.
    Mr. Engel. I am really very sorry about that.
    Mr. Garrett. I forgive you.
    Mr. Engel. I have been on this committee----
    Mr. Garrett. I----
    Mr. Engel. I don't need your forgiveness.
    Mr. Garrett. I don't understand the----
    Mr. Engel. I don't need your forgiveness.
    Mr. Garrett. Well, you have been on this committee long 
enough to know the protocol and I don't.
    Mr. Engel. Long enough to know----
    Mr. Garrett. So, I will yield you 30 seconds.
    Mr. Engel. Thank you. It is common courtesy that people are 
yielded time when they ask their colleagues.
    Let me just say, first of all, that when I grew up I 
learned from my parents that two wrongs don't make a right. 
Many of us on this side of the aisle were critical of the 
previous administration and what it did, and we said so at the 
time. There is no reason to not be critical of what is 
happening with the current administration just because the 
administration didn't do what should have been done.
    I will agree with you, and I have been saying this for 
years, that we made a misstep when we did not aid and abet, 
help the Free Syrian Army way back when. And we made a mistake 
when the previous President drew a line in the sand and then 
didn't follow through.
    But that doesn't absolve the current administration from 
its responsibility. And its responsibility has been that it 
needs to come to Congress with any plan that it has. It needs 
to tell us what their attempts are in Syria and what their 
goals are.
    We have learned for many, many years, giving any 
administration a blank check to create war is not something 
that this Congress should do.
    And I think there is no doubt in my mind, and in everybody 
else's mind, that Assad is really the butcher of Syria. That 
yes, there have been killings on both sides, but it was the 
Assad regime's reaction to the Arab Spring when peaceful 
Syrians went out to demonstrate against their dictatorial 
government that Assad decided he would respond with deadly 
force.
    And so I blame all the atrocities that happened in Syria on 
the bloody hands of Assad because had he not acted the way he 
acted, this would not have happened.
    I just want to set the record straight. I do agree that 
there were missteps by the previous administration but that 
doesn't mean that we have to overlook missteps by this 
administration.
    I yield back.
    Mr. Garrett. Thank you and I apologize again to Mr. Engel, 
as it relates to not yielding. I did not, literally, know the 
protocol of the committee. So I will take that lump.
    I want to thank the time of the witnesses today. These are 
very critical issues. Your expertise and insight is important 
and I think, candidly, despite the tone that some of this took, 
we all want the same thing, and that is a world in which people 
can live where they choose to live, free from fear of 
persecution or death. And Syria is one where, if we ultimately 
get it right, we might take a good step in the right direction 
toward ensuring that going forward in the future because it is 
certainly a tough rubric.
    Thank you very much.
    [Whereupon, at 12:47 p.m., the committee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
